<html>
<title> - DOE MODERNIZATION: LEGISLATION ADDRESSING DEVELOPMENT, REGULATION, AND COMPETITIVENESS OF ADVANCED NUCLEAR ENERGY TECHNOLOGIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


DOE MODERNIZATION: LEGISLATION ADDRESSING DEVELOPMENT, REGULATION, AND 
        COMPETITIVENESS OF ADVANCED NUCLEAR ENERGY TECHNOLOGIES

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2018

                               __________

                           Serial No. 115-132
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-420 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="690e1906290a1c1a1d010c0519470a060447">[email&#160;protected]</a>                  


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
ROBERT E. LATTA, Ohio                GENE GREEN, Texas
GREGG HARPER, Mississippi            MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     KATHY CASTOR, Florida
ADAM KINZINGER, Illinois             JOHN P. SARBANES, Maryland
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
MARKWAYNE MULLIN, Oklahoma               Massachusetts
RICHARD HUDSON, North Carolina       G.K. BUTTERFIELD, North Carolina
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
    Prepared statement...........................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    10

                               Witnesses

Brent Park, Ph.D., Deputy Administrator for Defense Nuclear 
  Proliferation, National Nuclear Security Administration, 
  Department of Energy...........................................    12
    Prepared statement...........................................    14
    Answers to submitted questions...............................   176
Edward G. McGinnis, Principal Deputy Assistant Secretary for 
  Nuclear Energy, Department of Energy...........................    19
    Prepared statement...........................................    21
    Answers to submitted questions...............................   189
Jeffrey S. Merrifield, Partner, Pillsbury Winthrop Shaw Pittman, 
  LLP, and Senior Advisor, ClearPath Action......................    52
    Prepared statement...........................................    55
    Answers to submitted questions...............................   202
Melissa C. Mann, President, URENCO USA, Inc., and Member, United 
  States Nuclear Industry Council................................    62
    Prepared statement...........................................    64
    Answers to submitted questions...............................   206
James Nicholas Irvin, Director, Research and Development, 
  Strategy, Advanced Nuclear, and Crosscutting Technology, 
  Southern Company, and Member, Advanced Reactor Working Group, 
  Nuclear Energy Institute.......................................    74
    Prepared statement...........................................    76
Edwin Lyman, Ph.D., Senior Scientist, Global Security Program, 
  Union of Concerned Scientists..................................    92
    Prepared statement...........................................    94

                           Submitted Material

H.R. 1320, the Nuclear Utilization of Keynote Energy Act, 
  submitted by Mr. Upton.........................................   126
Discussion Draft, a Bill to Amend the Atomic Energy Act of 1954, 
  submitted by Mr. Upton.........................................   146
Discussion Draft, the Advanced Nuclear Fuel Availability Act, 
  submitted by Mr. Upton.........................................   154
Discussion Draft, a Report on Pilot Program for Micro-Reactors, 
  submitted by Mr. Upton.........................................   159
Issue Brief of March 2018, ``US Nuclear-Power Leadership and the 
  Chinese and Russian Challenge,'' by Dr. Robert F. Ichord, Jr., 
  Atlantic Council, submitted by Mr. Upton.......................   164
Letter of May 21, 2018, from John Hopkins, Chairman and Chief 
  Executive Officer, NuScale Power, LLC, to Mr. Upton and Mr. 
  Rush, submitted by Mr. Shimkus.................................   171
Speech, ``The Nuclear Power Plant in Astrava, Belarus,'' by Mr. 
  Shimkus, submitted by Mr. Shimkus..............................   172

 
DOE MODERNIZATION: LEGISLATION ADDRESSING DEVELOPMENT, REGULATION, AND 
        COMPETITIVENESS OF ADVANCED NUCLEAR ENERGY TECHNOLOGIES

                              ----------                              


                         TUESDAY, MAY 22, 2018

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman of the subcommittee) presiding.
    Members present: Representatives Upton, Barton, Shimkus, 
Latta, Harper, McKinley, Kinzinger, Griffith, Johnson, Long, 
Bucshon, Flores, Mullin, Hudson, Walberg, Duncan, Walden (ex 
officio), Rush, McNerney, Peters, Green, Doyle, Castor, Welch, 
Tonko, Loebsack, Schrader, Kennedy, and Pallone (ex officio).
    Staff present: Mike Bloomquist, Staff Director; Samantha 
Bopp, Staff Assistant; Daniel Butler, Staff Assistant; Kelly 
Collins, Legislative Clerk, Energy/Environment; Margaret Tucker 
Fogarty, Staff Assistant; Adam Fromm, Director of Outreach and 
Coalitions; Jordan Haverly, Policy Coordinator, Environment; 
Milly Lothian, Press Assistant and Digital Coordinator; Mary 
Martin, Chief Counsel, Energy/Environment; Drew McDowell, 
Executive Assistant; Brandon Mooney, Deputy Chief Counsel, 
Energy; Mark Ratner, Policy Coordinator; Peter Spencer, Senior 
Professional Staff Member, Energy; Austin Stonebraker, Press 
Assistant; Hamlin Wade, Special Advisor for External Affairs; 
Everett Winnick, Director of Information Technology; Andy Zach, 
Senior Professional Staff Member, Environment; Priscilla 
Barbour, Minority Energy Fellow; Jeff Carroll, Minority Staff 
Director; Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy and Environment; John Marshall, Minority 
Policy Coordinator; Alexander Ratner, Minority Policy Analyst; 
Andrew Souvall, Minority Director of Communications, Member 
Services, and Outreach; Tuley Wright, Minority Energy and 
Environment Policy Advisor; and C.J. Young, Minority Press 
Secretary.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Good morning, everybody. Sorry I am a few 
minutes late. Good morning. And welcome to our hearing to 
discuss four very important legislative proposals to address 
and advance our Nation's nuclear energy policy.
    You know, as we have heard throughout Congress, our 
Nation's international nuclear leadership is eroding. Last 
week, a report by Bloomberg New Energy Finance found that 
nearly a quarter of our Nation's fleet of nuclear power 
reactors are at risk of early closure in the next couple of 
years.
    These 24 at-risk reactors total over 6 percent of the total 
electricity generated in the U.S., about how much electricity 
is consumed in Michigan and Illinois combined. And if we are 
going to get serious about an all-of-the-above energy strategy 
and the value of a diverse, clean energy portfolio, the 
implications of this threat cannot be ignored.
    The decision to close a nuclear power plant is 
irreversible. We know that. Reactors cannot be re-licensed to 
produce power once they cease operation. And if the projected 
retirement of nuclear energy is realized, the fleet's 
significant loss will lead to a ripple effect throughout the 
nuclear supply chain.
    Fuel cycle facilities that underpin both commercial and 
national security needs lose critical capacity. And technology 
services that provide world-class simulation to modernize and 
maximize nuclear safety will look to other global markets that 
have growth potential. The next generation of nuclear 
engineering and scientists would dry up as educational 
institutions can no longer continue to support the necessary 
facilities and programs. International leaders in the nuclear 
field made clear, made clear to this subcommittee a couple 
months ago that these cumulative repercussions will weaken our 
national security standing and, if it continues, would require 
a generation of sustained Federal commitment to rebuild.
    I don't cede that the outcome is inevitable. The thoughtful 
proposals that we are going to examine today provide directed 
solutions to address these multifaceted challenges.
    H.R. 1320, sponsored by Representatives Kinzinger and 
Doyle, brings budgetary discipline to the NRC and improves 
transparency and predictability for civilian nuclear companies. 
Under current statutory requirements, the NRC recovers about 90 
percent of its total budget from NRC licensees. As a result, my 
Southwest Michigan ratepayers help fund the NRC to regulate, 
license, and oversee the commercial nuclear industry. The 
Kinzinger-Doyle bill also lays out basic expectations that 
align with the NRC's established tradition of adhering to the 
organization's Principles of Good Regulation.
    Congressman Johnson's discussion draft discusses the global 
competitive challenges for the nuclear supplier community. When 
provided a level playing field, I am confident American know-
how and technological leadership is the best in the world. 
However, nuclear companies backed by foreign governments, which 
don't necessarily share our values, artificially subsidize our 
competition. The motivation behind these actions is clear. Mr. 
Johnson's bill will improve the ability of our companies to 
compete, and win, in international markets.
    Imagine designing a new car that is cheaper, safer, and 
gets triple the fuel mileage from anything that we see on the 
road today, but when the vehicle is ready to hit the road, 
there is just no gas to fill up the tank. Nuclear innovators 
face just that challenge.
    Advanced nuclear technologies offer a wealth of promising 
benefits. However, for these designs to become reality, a 
certain amount of advanced nuclear fuel must be available for 
the first movers. Congressman Flores' legislation helps address 
this obstacle by directing DOE to undertake specific actions to 
provide what is known as high-assay low-enriched uranium. The 
time to begin addressing this problem is now in order to have 
the advanced fuel available when it is needed.
    The fourth bill, bipartisan legislation from Congressmen 
Hudson, Peters, Wilson, and Norcross, directs the Secretary of 
Energy to identify the key components for a pilot program that 
could capture the energy security benefits of future nuclear 
technologies to support critical national security 
infrastructure.
    This morning we are going to hear from the Department 
Energy on the first panel, including the Office of Nuclear 
Energy and NNSA. We are also going to hear several expert 
perspectives on the second panel.
    I look forward to that discussion, and at this point would 
yield to the ranking member of the subcommittee, Mr. Rush from 
Illinois.
    [The proposed legislation appears at the conclusion of the 
hearing.]
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Good morning and welcome to our hearing to discuss four 
important legislative proposals to address and advance our 
Nation's nuclear energy policy.
    As we have heard throughout Congress, our Nation's 
international nuclear leadership is eroding. Just last week, a 
report by Bloomberg New Energy Finance found that nearly a 
quarter of our Nation's fleet of nuclear power reactors are at 
risk of early closure in the next few years.
    These 24 at-risk reactors total over 6 percent of the total 
electricity generated in the United States, about how much 
electricity is consumed in Michigan and Illinois combined. If 
we are serious about an all-of-the-above energy strategy and 
the value of a diverse, clean energy portfolio, the 
implications of this threat cannot be ignored.
    The decision to close a nuclear power plant is 
irreversible. Reactors cannot be relicensed to produce power 
once they cease operation. If the projected retirement of 
nuclear energy is realized, the fleet's significant loss will 
lead to a ripple effect throughout the nuclear supply chain.
    Fuel cycle facilities, that underpin both commercial and 
national security needs, lose critical capacity. Technology 
services that provide world-class simulation to maximize 
nuclear safety will look to other global markets that have 
growth potential. The next generation of nuclear engineering 
and scientists would dry up as educational institutions can no 
longer continue to support the necessary facilities and 
programs. International leaders in the nuclear field made clear 
to this subcommittee in February, these cumulative 
repercussions will weaken our national security standing and, 
if it continues, would require a generation of sustained 
Federal commitment to rebuild.
    But I do not yet cede that outcome as inevitable. The 
thoughtful proposals we will examine today provide directed 
solutions to address these multifaceted challenges.
    H.R. 1320, sponsored by Representatives Kinzinger and 
Doyle, brings budgetary discipline to the Nuclear Regulatory 
Commission (NRC) and improves transparency and predictability 
for civilian nuclear companies. Under current statutory 
requirements, the NRC recovers about 90 percent of its total 
budget from NRC licensees. As a result, my Southwestern 
Michigan ratepayers help fund NRC to regulate, license, and 
oversee the commercial nuclear industry. The Kinzinger-Doyle 
bill also lays out basic expectations that align with NRC's 
established tradition of adhering to the organization's 
Principles of Good Regulation.
    Congressman Johnson's discussion draft addresses the global 
competitive challenges for the nuclear supplier community. When 
provided a level playing field, I am confident American know-
how and technological leadership is the best in the world. 
However, nuclear companies backed by foreign governments, which 
don't necessarily share our American values, artificially 
subsidize our competition. The motivation behind these actions 
is clear. Our adversaries seek to establish 50-year, or longer, 
geostrategic relationships. Mr. Johnson's bill will improve the 
ability of our companies to compete, and win, in international 
markets.
    Imagine designing a new car that is cheaper, safer, and 
gets triple the fuel mileage from anything we see on the road 
today. But when the vehicle is ready to hit the road, there is 
no gas to fill up the tank. Nuclear innovators face just that 
challenge.
    Advanced nuclear technologies offer a wealth of promising 
benefits. However, for these designs to become reality, a 
certain amount of advanced nuclear fuel must be available for 
the first movers. Congressman Flores' legislation helps address 
this obstacle by directing DOE to undertake specific actions to 
provide what is known as high-assay low-enriched uranium. The 
time to begin addressing this problem is now in order to have 
the advanced fuel available when needed.
    The fourth bill, the bipartisan legislation from 
Congressmen Hudson, Peters, Wilson, and Norcross, directs the 
Secretary of Energy to identify the key components for a pilot 
program that could capture the energy security benefits of 
future nuclear technologies to support critical national 
security infrastructure.
    This morning we will here from the Department of Energy on 
the first panel, including from the office of Nuclear Energy 
and the NNSA. We will also hear several expert perspectives on 
the second panel. I look forward to the discussion and working 
with my colleagues on both sides of the aisle to advance these 
important bipartisan bills.
    I look forward to the feedback the two panels of expert 
witnesses will provide this morning, as well as working with my 
colleagues on both sides of the aisle to advance these 
important bipartisan bills.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Well, thank you, Mr. Chairman. Mr. Chairman, 
thank you so much for holding this important hearing today on 
legislation addressing the development, regulation, and 
competitiveness of advanced nuclear technologies.
    As I have said many times before, Mr. Chairman, I subscribe 
to an all-of-the-above energy portfolio, even as we move 
towards a low carbon energy economy. I have also stated on many 
occasions that I believe nuclear energy must play a vital role 
as a source of safe, reliable, low carbon power that can help 
us meet the energy and environmental needs of the 21st Century.
    I look forward to working with the majority as we proceed 
through regular order. And I believe that we may be able to 
come to a strong, bipartisan agreement on most, if not all of 
these bills.
    Today, Mr. Chairman, I support the discussion draft offered 
by Mr. Flores of Texas which would simply direct the Secretary 
of Energy to establish a program to support the availability of 
high-assay low-enriched uranium, or HA-LEU, for commercial use. 
We have learned that there are several companies looking to 
design and license advanced nuclear reactor technologies 
utilizing uranium-235 isotopes enriched at levels greater than 
5 percent and less than 20 percent. Some of these companies 
identified significant challenges associated with assessing HA-
LEU.
    And I believe Mr. Flores' discussion draft will address 
some of these concerns and make HA-LEU more accessible with the 
right safeguards. Also, I support, Mr. Chairman, that the 
discussion draft offered by a group of bipartisan Members, 
including two from this subcommittee, Mr. Hudson of North 
Carolina, and Mr. Peters of California. This bill would require 
the Secretary of Energy to develop a report on a pilot program 
to site, construct, and operate microreactors at critical 
national security locations.
    Mr. Chairman, I am also inclined to support some of the 
objectives of H.R. 1320, which will amend the NRC fee recovery 
process associated with the advanced reactor regulatory 
framework, while also limiting internal funds available for 
corporate support costs and capping fees on operating reactors.
    However, Mr. Chairman, I do have some concerns regarding 
the bill's provisions essentially repealing licensing 
assistance to foreign governments. Also want to better 
understand verification of repealing requirements for mandatory 
hearing while also implementing specific time lines to review 
environmental impact statements and how these changes might 
impact public input.
    Finally, Mr. Chairman, I also look forward to engaging 
today's witnesses on the discussion draft sponsored by Mr. 
Johnson of Ohio. This bill would, among other things, revise 
DOE's review of Part 810 process by expediting procedures for 
transferring civilian nuclear technology, including to foreign 
powers. Mr. Chairman, this proposal comes against the 
background of the current administration's decision to renege 
on the U.S. commitment in the Iran deal while also moving 
forward on potential talks with North Korea's volatile dictator 
on denuclearization issues.
    So I look forward to hearing today's distinguished panel on 
both the timing and the necessity of this legislation, as well 
as identifying possible unintended consequences.
    I want to thank you, Mr. Chairman, and I yield back the 
balance of my time.
    [The prepared statement of Mr. Rush follows:]

                Prepared statement of Hon. Bobby L. Rush

    I want to thank you, Mr. Chairman, for holding this 
important hearing today on legislation addressing the 
development, regulation, and competitiveness of advanced 
nuclear technologies.
    Mr. Chairman, as I have stated many times before, I 
subscribe to an all-of-the-above energy portfolio, even as we 
move towards a low-carbon energy economy.
    I have also stated on many occasions that I believe nuclear 
energy must play a vital role as a source of safe, reliable, 
low-carbon power that can help us meet both the energy and 
environmental needs of the 21st Century.
    Mr. Chairman, I look forward to working with the majority 
as we proceed through regular order and I believe we may be 
able to come to a strong bipartisan agreement on most, if not 
all of those bills.
    Today, I support the discussion draft, authored by Rep. 
Flores of Texas, which would simply direct the Secretary of 
Energy to establish a program to support the availability of 
high-assay low-enriched uranium, or HA-LEU, for commercial use.
    We have learned that there are several companies looking to 
design and license advanced nuclear reactor technologies 
utilizing uranium-235 isotopes enriched at levels greater than 
5 percent and less than 20 percent.
    Some of these companies identified significant challenges 
associated with accessing HA-LEU and I believe Mr. Flores' 
discussion draft would address some of these concerns and make 
HA-LEU more accessible with the right safeguards.
    I also support the discussion draft authored by a group of 
bipartisan Members, including two from this subcommittee, Mr. 
Hudson of North Carolina and Mr. Peters of California.
    This bill would require the Secretary of Energy to develop 
a report on a pilot program to site, construct, and operate 
microreactors at critical national security locations.
    Mr. Chairman, I am also inclined to support some of the 
objectives of HR 1320, which would amend the NRC's fee recovery 
process associated with the advanced reactor regulatory 
framework, while also limiting the total funds available for 
corporate support costs, and capping fees on operating 
reactors.
    However, I have some concerns regarding the bills' 
provision potentially repealing licensing restrictions to 
foreign governments.
    I also want to better understand the implications of 
repealing requirements for mandatory hearings, while also 
implementing specific timelines to review final environmental 
impact statements and how that might impact public input.
    Finally, Mr. Chairman, I also look forward to engaging 
today's witnesses on the discussion draft sponsored by Mr. 
Johnson of Ohio.
    This bill would, among other things, revise DOE's review of 
the Part 810 process by expediting procedures for transferring 
civilian nuclear technology, including to foreign powers.
    Mr. Chairman, this proposal comes against the backdrop of 
the current administration's decision to renege on the U.S. 
commitment in the Iran Deal, while also moving forward on 
potential talks with North Korea's volatile dictator on 
denuclearization issues.
    So, I look forward to engaging today's distinguished 
panelists on both the timing and necessity of this legislation, 
as well as identifying possible unintended consequences.
    Thank you, Mr. Chairman, and with that I yield back the 
balance of my time.

    Mr. Upton. The Chair recognizes for an opening statement 
the chair of the full committee, the gentleman from Oregon.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Mr. Chairman. Thanks for holding 
this hearing. This really represents an important component of 
our Department of Energy effort at modernization.
    The bills we will examine today provide key ingredients to 
enhance a core national security and energy security mission 
for the Department, and of the Nation: promoting the safe and 
peaceful use of nuclear technology. It is really important.
    Congress first authorized the commercial application of 
atomic energy in 1954, when it declared the, and I quote, 
``development, use, and control of atomic energy shall be 
directed so as to promote world peace, improve the general 
welfare, increase the standard of living, and strengthen free 
competition in private enterprise.'' That policy remains as 
relevant today and as important as ever.
    By any measure, atomic energy has already brought 
tremendous benefits to the Nation; it has provided a baseload, 
emissions-free source of electricity that has powered homes and 
industry over the last half a century. It has provided an 
infrastructure for our national and international security, 
from the technologies and fuels for our nuclear navy to the 
safety and security for civilian nuclear power the world over.
    However, as everyone on this panel knows well, a confluence 
of factors--abundant natural gas, power market designs, 
economic and regulatory burdens--have inhibited the Nation's 
nuclear energy over the past decade. The challenge confronting 
policymakers is how to preserve the beneficial use of atomic 
energy for future generations. Thoughtful, targeted legislative 
proposals today I think are a really good start.
    The bipartisan bill from Representatives Kinzinger and 
Doyle establishes reasonable and predictable time frames for 
regulatory decisions so companies like Oregon-based Nuscale 
Power can develop business plans to commercialize new nuclear 
technologies, while also protecting future consumers from high 
regulatory costs.
    The many regulatory requirements imposed by the Federal 
Government on special nuclear material are understandable due 
to the risk associated with unsecured radioactive sources, but 
this presents barriers to new market entrants, too. Congressman 
Flores' discussion draft will spur innovation by providing a 
solution to advanced nuclear fuel needs.
    And the bipartisan discussion draft from E&C members Hudson 
and Peters and two members of the Armed Services Committee, 
Congressmen Wilson and Norcross, will help identify specific 
national security applications to capture the benefits of 
transformational nuclear reactor designs. For example, Idaho 
National Laboratory's remote location and critical defense 
programs may be an ideal location to construct and operate a 
resilient nuclear reactor.
    And lastly, Congressman Johnson's discussion draft will 
help reduce barriers to competition facing our domestic 
manufacturing, vendors, and nuclear service companies. This is 
a critical conversation for this subcommittee and one we must 
not shy away from.
    This morning's witnesses bring both extensive experience in 
public service and business acumen. And we thank you both for 
being here.
    I want to welcome Dr. Brent Park, the recently confirmed 
Deputy Administrator for Defense Nonproliferation at the 
National Nuclear Security Administration. Dr. Park is 
responsible for critical national security programs that keep 
America safe. Dr. Park is joined on the first panel by Ed 
McGinnis from DOE's Office of Nuclear Energy. So we appreciate 
your being here.
    And the second panel this morning includes Melissa Mann, 
the president of URENCO, USA. URENCO is the only domestically 
located, NRC-licensed facility to enrich uranium for commercial 
use. Ms. Mann brings a wealth of insight to this discussion on 
behalf of the U.S. nuclear supply chain industry.
    And Southern Nuclear has assumed the leadership mantle on 
behalf of utilities to assess and develop advanced nuclear 
reactor designs. Nick Irvin leads those efforts for Southern 
Company and offers a hands-on testimonial of the rigorous 
process underway across the country to seek regulatory approval 
for promising first-of-its-kind technologies.
    I also want to welcome back Jeff Merrifield, who has 
testified in this room many times, going back to his tenure as 
an NRC Commissioner. He is now practicing law with a focus on 
advanced nuclear reactors and strategic counsel to energy 
companies. Jeff provides an abundance of experience to inform 
today's discussions.
    There remains tremendous promise for America's nuclear 
technology. And we can ensure that promise through legislative 
reforms reflective of our committee priorities to put consumers 
first, advance innovation, protect national security, and spur 
competition. I believe the four bills today align with those 
priorities.
    So I look forward to and thank our Members on both sides of 
the aisle for coming together for these initiatives. And I 
would be remiss if I didn't also thank the committee, and 
especially Mr. Shimkus, for the effort to get a permanent and 
interim nuclear waste storage facility up and running. He and I 
won the pool on the vote count in the House. We both 
independently predicted 340 votes would be achieved, and that 
was the number. Now we just need, you know, 100 in the Senate. 
Maybe 98 would do.
    So, with that, Mr. Chairman, we remain committed to moving 
forward on this energy front. And I return the balance of my 
time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Today's Energy Subcommittee legislative hearing represents 
an important component of our DOE modernization efforts.
    The bills we will examine provide key ingredients to 
enhance a core national security and energy security mission of 
the Department, and of the Nation: promoting the safe and 
peaceful use of nuclear technology.
    When Congress first authorized the commercial application 
of atomic energy in 1954, it declared: the ``development, use, 
and control of atomic energy shall be directed so as to promote 
world peace, improve the general welfare, increase the standard 
of living, and strengthen free competition in private 
enterprise.''
    That policy remains as relevant today and as important as 
ever.
    By any measure, atomic energy has already brought 
tremendous benefits to the Nation; it has provided a baseload, 
emissions-free source of electricity that has powered homes and 
industry over the past half-century. It has provided an 
infrastructure for our national and international security--
from the technologies and fuels for our nuclear navy to the 
safety and security for civilian nuclear power.
    However, as everybody on this panel knows well, a 
confluence of factors--abundant natural gas, power market 
designs, economic and regulatory burdens- have inhibited the 
Nation's nuclear industry over the past decade.
    The challenge confronting policymakers is how to preserve 
the beneficial use of atomic energy for future generations. 
Today's thoughtful, targeted legislative proposals are a good 
start.
    The bipartisan bill from Representatives Kinzinger and 
Doyle establishes reasonable and predictable timeframes for 
regulatory decisions so companies like Oregon-based Nuscale 
Power can develop business plans to commercialize new nuclear 
technologies, while also protecting future consumers from 
unnecessarily high regulatory costs.
    The many regulatory requirements imposed by the Federal 
Government on special nuclear material are understandable due 
to the risk associated with unsecure radioactive sources, but 
these regulations present barriers to new market entrants. 
Congressman Flores' discussion draft will spur innovation by 
providing a solution to advanced nuclear fuel needs.
    The bipartisan discussion draft from committee members 
Hudson and Peters and two members of the Armed Services 
Committee, Congressmen Wilson andNorcross, will help identify 
specific national security applications to capture the benefits 
of transformational nuclear reactor designs. For example, Idaho 
National Laboratory's remote location and critical defense 
programs may be an ideal location to construct and operate a 
resilient nuclear reactor.
    And lastly, Congressman Johnson's discussion draft will 
help reduce barriers to competition facing our domestic 
manufacturing, vendors, and nuclear service companies. This is 
a critical conversation for this subcommittee, and one we must 
not shy away from.
    This morning's witnesses bring both extensive experience in 
public service and business acumen.
    I welcome Dr. Brent Park, the recently confirmed Deputy 
Administrator for Defense Nonproliferation at the National 
Nuclear Security Administration. Dr. Park is responsible for 
overseeing critical national security programs that keep 
America safe. Dr. Park is joined on the first panel by Ed 
McGinnis from DOE's Office of Nuclear Energy.
    The second panel this morning includes Melissa Mann, the 
president of Urenco, USA. Urenco is the only domestically 
located, NRC-licensed facility to enrich uranium for commercial 
use. Ms. Mann brings a wealth of insight to this discussion on 
behalf of the U.S. nuclear supply chain industry.
    Southern Nuclear has assumed the leadership mantle on 
behalf of utilities to assess and develop advanced nuclear 
reactor designs. Nick Irvin leads those efforts for Southern 
Company and offers a hands-on testimonial of the rigorous 
process underway across the country to seek regulatory approval 
for promising first-of-a-kind technologies.
    I also welcome back Jeff Merrifield, who has testified in 
this room many times going back to his tenure as an NRC 
Commissioner. He is now practicing law with a focus on advanced 
nuclear reactors and strategic counsel to energy companies. 
Jeff provides an abundance of experience to inform today's 
discussion.
    There remains tremendous promise for American nuclear 
technology; and we can ensure that promise through legislative 
reforms, reflective of our committee priorities to put 
consumers first, advance innovation, protect national security, 
and spur competition. The four bills today align with those 
priorities.
    I appreciate the bipartisan leadership from Members on this 
topic and look forward to moving these important bills forward.

    Mr. Upton. The Chair would recognize the ranking member of 
the full committee, Mr. Pallone, for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today's hearing will examine four bills addressing a range 
of topics relating to advanced nuclear energy technology. H.R. 
1320, the Nuclear Utilization of Keynote Energy Act, introduced 
by Representatives Kinzinger and Doyle, builds upon a 
discussion draft that this subcommittee reviewed in 2016.
    H.R. 1320 makes several major changes to the Nuclear 
Regulatory Commission's budgeting process and fee structure. 
The bill caps corporate support costs at the Commission and 
puts a ceiling on the fee charged to each nuclear reactor. I 
appreciate the financial strain the nuclear industry is facing 
and the carbon free energy it provides, however, I am concerned 
that these budgetary changes could arbitrarily limit the 
resources the NRC needs and adversely affect its ability to do 
its job.
    I also have questions about Section 7 of the bill which 
sets up an expedited time line for review of nuclear reactors 
at the NRC. The bill provides 24 months to complete a draft 
environmental impact statement and 42 months to complete the 
technical review process. Inflexible deadlines could jeopardize 
the environmental and safety review process for more complex 
applications.
    And I am also concerned with the provision in the section 
that requires NRC issue a construction permit to a nuclear 
facility even if an entity has filed a formal request for a 
hearing objecting to the project. Stakeholders should have the 
chance to voice their concerns publicly before a project permit 
is issued.
    But despite my issues with those sections of the bill, I am 
supportive of setting a deadline for the NRC to finish its 
decommissioning rulemaking and removing advanced nuclear 
reactor work at NRC from the fee recovery requirement. I look 
forward to work with my colleagues on this bill as we move 
forward in the process.
    The committee will also review a discussion draft from 
Representative Johnson that makes changes to the process by 
which the Secretary of Energy authorizes the transfer of 
unclassified nuclear energy technology and assistance to 
foreign countries. This is known as the Part 810 process. I 
appreciate that this process must function well for the U.S. to 
remain competitive in the commercial nuclear space, but the 
bill establishes a 30-day time frame for the Secretary to 
approve the transfer of certain low proliferation risk nuclear 
technologies to countries that are not nuclear weapon states.
    Unfortunately, President Trump has put us on the path to 
upend the current dynamic of nuclear weapons proliferation 
across the globe. The President has walked away from the Iran 
deal. And now Saudi Arabia has said that if Iran restarts its 
nuclear program Saudi Arabia will itself pursue building 
nuclear weapons. And I am uncomfortable with expediting the 
review process of Part 810 at a time when there is so much 
global uncertainty on nuclear proliferation. This is not the 
right time to address this issue.
    Next, the committee will consider a discussion draft from 
Representative Flores to accelerate the availability of high-
assay low-enriched uranium. This is the fuel needed for most 
advanced nuclear reactor designs. It is not commercially 
available today. In order to ensure the fuel is available for 
advanced reactors once they are licensed and ready to begin 
producing electricity, the Federal Government will need to 
coordinate efforts within agencies and with the commercial 
nuclear sector. This is a worthy effort, and I look forward to 
working with the majority on this proposal.
    And last, we have a discussion draft that directs the 
Departments of Energy and Defense to develop a report 
evaluating the resiliency benefits of siting microreactors at 
critical DOE and DoD infrastructure sites. I believe this 
report will provide the committee with valuable information, 
and commend Representatives Peters and Hudson, as well as my 
New Jersey colleague, Representative Norcross, for taking up 
this important issue.
    But finally, I want to thank, I do want to thank Priscilla 
Barbour, who has provided invaluable support over the last year 
as an energy fellow on the minority committee staff. Priscilla 
is finishing her fellowship tomorrow, and I wish her well on 
her future endeavors.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today's hearing will examine four bills addressing a range 
of topics relating to advanced nuclear energy technologies.
    H.R. 1320, the Nuclear Utilization of Keynote Energy Act, 
introduced by Representatives Kinzinger and Doyle, builds upon 
a discussion draft that this subcommittee reviewed in 2016. 
H.R. 1320 makes several major changes to the Nuclear Regulatory 
Commission's (NRC) budgeting process and fee structure. The 
bill caps corporate support costs at the Commission and puts a 
ceiling on the fee charged to each nuclear reactor. I 
appreciate the financial strain the nuclear industry is facing 
and the carbon-free energy it provides. However, I am concerned 
that these budgetary changes could arbitrarily limit the 
resources the NRC needs and adversely affect its ability to do 
its job.
    I also have questions about section 7 of the bill, which 
sets up an expedited timeline for review of nuclear reactors at 
the NRC. The bill provides 24 months to complete a draft 
environmental impact statement and 42 months to complete the 
technical review process. Inflexible deadlines could jeopardize 
the environmental and safety review process for more complex 
applications. I am also concerned with a provision in this 
section that requires NRC to issue a construction permit for a 
nuclear facility even if an entity has filed a formal request 
for a hearing objecting to the project. Stakeholders should 
have the chance to voice their concerns publicly before a 
project permit is issued.
    Despite my issues with those sections of the bill, I am 
supportive of setting a deadline for the NRC to finish its 
decommissioning rulemaking and removing advanced nuclear 
reactor work at NRC from the fee recovery requirement. I look 
forward to working with my colleagues on this bill as we move 
forward in the process.
    The committee will also review a discussion draft from Rep. 
Johnson that makes changes to the process by which the 
Secretary of Energy authorizes the transfer of unclassified 
nuclear energy technology and assistance to foreign countries. 
This is known as the Part 810 process. I appreciate that this 
process must function well for the U.S. to remain competitive 
in the commercial nuclear space. But, the bill establishes a 
30-day time frame for the Secretary to approve the transfer of 
certain ``low proliferation risk'' nuclear technologies to 
countries that are not nuclear weapons states.
    Unfortunately, President Trump has put us on the path to 
upend the current dynamic of nuclear weapons proliferation 
across the globe. The President has walked away from the Iran 
deal, and now Saudi Arabia has said that if Iran restarts its 
nuclear program, Saudi Arabia will itself pursue building 
nuclear weapons. I am uncomfortable with expediting the review 
process for Part 810 at a time when there is so much global 
uncertainty on nuclear proliferation. This is not the right 
time to address this issue.
    Next, the committee will consider a discussion draft from 
Rep. Flores to accelerate the availability of high-assay low-
enriched uranium. This is the fuel needed for most advanced 
nuclear reactor designs. It is not commercially available 
today. In order to ensure the fuel is available for advanced 
reactors once they are licensed and ready to begin producing 
electricity, the Federal Government will need to coordinate 
efforts within agencies, and with the commercial nuclear 
sector. This is a worthy effort, and I look forward to working 
with the majority on this proposal.
    Last, we have a discussion draft that directs the 
Departments of Energy and Defense to develop a report 
evaluating the resiliency benefits of siting microreactors at 
critical DOE and DOD infrastructure sites. I believe this 
report will provide the committee with valuable information, 
and commend Representatives Peters and Hudson, as well as my 
New Jersey colleague, Rep. Norcross for taking up this 
important issue.
    Finally, I want to thank Priscilla Barbour, who has 
provided invaluable support over the last year as an energy 
fellow on the minority committee staff. Priscilla is finishing 
her fellowship tomorrow.

    Mr. Pallone. And then I would like to yield my minute to 
Mr. Doyle.
    Mr. Doyle. Thank you, Mr. Pallone. And thank you, Mr. 
Chairman, for holding this hearing today. I appreciate the 
opportunity to discuss nuclear energy, which is a critical 
component of our Nation's energy portfolio.
    Nuclear energy provides nearly 40 percent of Pennsylvania's 
electricity, and employs thousands of skilled workers in 
Pennsylvania. This carbon-free, reliable baseload power is also 
an important factor in meeting our climate goals, which is why 
it is necessary to work collaboratively to address the issues 
confronting the nuclear industry.
    I want to thank my colleague, Congressman Adam Kinzinger, 
for his leadership introducing H.R. 1320, the NUKE Act. This 
bipartisan legislation would take important steps to modernize 
the NRC's fee structure, study new opportunities for additional 
regulatory certainty, and look to future reforms that will 
ensure the NRC can continue to effectively protect public 
health and safety.
    I would note that this legislation was originally entitled 
the NUKEPA Act, so I appreciate that the name has evolved so 
that it no longer poses a threat to the State of Pennsylvania.
    Mr. Chairman, with that, I thank you and yield back.
    Mr. Upton. The gentleman's time has expired. We are now 
ready to start our distinguished panel's testimony. We welcome 
Brent Park, the Deputy Administrator for Defense Nuclear 
Nonproliferation at the NNSA; and Ed McGinnis, Principal Deputy 
Assistant Secretary for the Office of Nuclear Energy at DOE.
    So, welcome to both. And each, thank you for submitting 
your testimony in advance. It will be made part of the record 
in its entirety. And we would like you to spend 5 minutes each, 
no longer than that, to discuss the summary, at which point we 
will go to questions.
    Dr. Park, we will welcome you first.

   STATEMENTS OF BRENT PARK, PH.D., DEPUTY ADMINISTRATOR FOR 
   DEFENSE NUCLEAR PROLIFERATION, NATIONAL NUCLEAR SECURITY 
 ADMINISTRATION, DEPARTMENT OF ENERGY, AND EDWARD G. MCGINNIS, 
   PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR NUCLEAR ENERGY, 
                      DEPARTMENT OF ENERGY

                    STATEMENT OF BRENT PARK

    Dr. Park. Good morning, Chairman Upton, Ranking Member 
Rush, members of the subcommittee. Thank you for the 
opportunity to provide views on behalf of the Department of 
Energy's National Nuclear Security Administration on the 
proposed pieces of legislation. I appreciate the ongoing 
bipartisan efforts to address our Nation's energy challenges.
    First I would like to discuss the potential for DOE to 
establish a program to support the availability of high-assay 
low-enriched uranium, so-called HA-LEU. NNSA fully agrees with 
the committee that availability of HA-LEU is important, and 
recognizes the need that industry has expressed for researching 
and developing HA-LEU fuels.
    Enriched uranium is required at various levels of 
enrichment and forms for national security and nonproliferation 
missions, as well as an equalizer for production. Since the 
United States no longer has a uranium enrichment capability for 
these missions, the Nation relies on inventory of highly 
enriched uranium material that is unblended to meet the 
enriched uranium requirements identified above. However, our 
supply is finite, and at present irreplaceable. Moreover, our 
current stores of HA-LEU will run out in the early 2040s.
    To meet industry needs, NNSA will evaluate any specific 
requests from industry for this material alongside NNSA's 
ongoing needs for enriched uranium for defense and nondefense 
purposes.
    NNSA supports the language in the bill regarding the 
development of a transportation package for HA-LEU, and 
exploring options to establish a domestic HA-LEU enrichment and 
production capability. NNSA strongly supports such an 
enrichment capability which we believe is essential in assuring 
a long-term supply of HA-LEU to meet the needs of the 
commercial industry, research reactors, and medical isotope 
products.
    A second bill with NNSA components for discussion today 
pertains to DOE's authority under 10 C.F.R. Part 810 to 
regulate exports of U.S. civil nuclear technology and 
assistance for peaceful purposes. Overall, this draft 
legislation will deliver useful and practical improvements of 
the regulatory process that is important to the Nation's 
security and economic prosperity.
    We appreciate the opportunity to come before you today as 
well as continue the discussion with your staff on any issues 
that may arise. The Department seeks to ensure the highest 
nonproliferation standards are applied globally in such a way 
as to facilitate U.S. exports. The burgeoning international 
nuclear energy market provides a significant commercial 
opportunity for the U.S. nuclear industry, and the export of 
U.S. nuclear technology plays a large part in making sure U.S. 
industry remains an active player in this market.
    In response to feedback from the U.S. industry and other 
stakeholders, we have taken a number of steps to simplify and 
update the Part 810 regulation, and have implemented 
significant improvements in the process for reviewing export 
applications. In addition to the Department's recent 
implementation of the e810 electronic application system, the 
committee's legislation will further streamline the review 
process in general, while maintaining strong nonproliferation 
controls on U.S. nuclear technology.
    We agree that this legislation will empower the Secretary 
of Energy to authorize technology and systems exports in a more 
expeditious manner. I look forward to additional discussion 
with the committee.
    In our view, this legislation will reduce processing times 
for applications involving certain reactor technologies and 
destinations that present a low risk of nuclear proliferation, 
and will provide the Department with flexibility to recommend 
the Secretary to delegate some application approvals to a lower 
level.
    Another advantage the bill provides is the requirement for 
DOE offices to review Part 810 applications at the same time 
that they are being reviewed by the interagency whether they 
are performing these reviews expressly. We are happy to report 
that the Department has already begun this process, and we are 
confident this is yet another step in the right direction.
    NNSA recognizes that the effective implementation of our 
mission is to strengthen our strong partnerships with industry. 
NNSA needs these strong energy partners to resolve the critical 
national security issues that we face.
    Thank you for the opportunity to testify before you today. 
And I, with my staff, look forward to future discussions of 
this draft bill. I stand ready to answer any questions you may 
have.
    [The prepared statement of Dr. Park follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you so much.
    Mr. McGinnis.

                STATEMENT OF EDWARD G. MCGINNIS

    Mr. McGinnis. Thank you very much, Chairman Upton, Ranking 
Member Rush, and other members of the subcommittee. I am very 
pleased to appear before you today to discuss legislation 
addressing advanced nuclear energy technologies, including 
high-assay low-enriched uranium, which I will refer to in 
shorthand during my testimony as high-assay LEU.
    Although the administration is still evaluating your bills 
and has not taken an official position at this time, the 
Department greatly appreciates the committee's interest in 
these topics and recognizes the potentially very important role 
high-assay LEU may well play in meeting our Nation's energy and 
national security needs.
    Over the last seven decades, the nuclear energy 
capabilities pioneered by the United States have served and 
supported our Nation's energy security and, in turn, national 
security. In recognition of this vital role, the White House-
led review of U.S. nuclear energy policy is underway, and we 
are already beginning to take steps to revitalize and expand 
our civil nuclear energy sector. The outcomes of the civil 
nuclear review will inform our approach to revitalizing this 
critical sector.
    While our Nation's nuclear infrastructure, supply chain, 
and manufacturing base have been significantly degraded, the 
United States still leads the world in other key areas of 
nuclear energy. In fact, we believe the most mature advanced 
U.S. designs could potentially be deployed as early as the mid 
to late 2020s by the private industry. This is where the need 
for high-assay LEU arises.
    Nearly all U.S. advanced nonlight-water reactors under 
development will require high-assay LEU, including advanced 
microreactors. The advanced reactor community has stressed the 
near-term need and importance of high-assay LEU for advanced 
nuclear fuel, qualification testing, and for potential 
demonstration reactors.
    No commercial enricher currently provides high-assay LEU. 
While current enrichment plants could be modified to produce 
high-assay LEU, it is unlikely that a commercial capability 
would be pursued without further indication of progress towards 
deployment by advanced reactor vendors. The Department 
recognizes the industry's concerns regarding high-assay LEU 
fuel, and we are taking a number of actions to support the 
development of high-assay LEU in the near and longer term.
    First, the Department is working with industry to refine 
its near-term R&D needs for fuel development and qualification, 
particularly how much material is needed, when, and in what 
form, and also to understand more about projections for longer-
term needs.
    Second, we are leveraging our expertise in support of the 
technical aspects of commercial high-assay LEU infrastructure. 
The Department is aware that high-assay LEU may be needed in 
various fuel forms by different vendors. On the transportation 
side there are no large scale shipments of uranium enriched 
above 5 percent. And the transportation packages currently used 
for these smaller shipments may not support commercial-scale 
operations.
    Third, the Department is reviewing materials across the DOE 
complex with an eye toward materials and processing options 
that may support some near-term industry R&D needs. Once 
industry needs in terms of quantities, forms, tolerances for 
impurities, and timing are known, the Department can then 
evaluate specific requests from industry for material, 
alongside our ongoing needs for research, reactor fuel, and 
medical isotope production. Current Department mission needs 
are supplied from our finite and diminishing supply of high-
enriched uranium.
    In conclusion, the Department is working closely with U.S. 
nuclear innovators to define the challenges to bringing the 
next generation of advanced nuclear reactors and power into the 
marketplace, and are embarking on a number of actions to 
support the development of a commercial fuel cycle for high-
assay LEU.
    We look forward to working with Congress, including in 
particular the subcommittee here, industry, and our partners 
across the Department on defining and exploring high-assay LEU 
issues now and in the future.
    And, finally, I would just like to say that we greatly 
appreciate the work and focus of this subcommittee on such 
important matters to our Nation's energy and national security. 
Thank you very much.
    [The prepared statement of Mr. McGinnis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Well, thank you both. And appreciate your kind 
words. And we do work, try to work in a bipartisan way in 
potentially all the things that we move through this 
subcommittee. And we look forward to working with you.
    I would say as we talk about these bills, and the sponsors 
are here, we intend to move these bills. And there is a 
legislative process. We want your input. I know that you have 
not taken a formal stand with staff on any of these, but we 
would like your technical assistance, but also your continued 
input as these bills begin to move through the process. So if 
you can take that back to your department heads, that would be 
great.
    Quick, couple of quick questions from my vantage point. You 
know, we know that, according to the EIA and World Nuclear 
Association data, there are presently about 50 nuclear reactors 
under construction around the world, mostly in Asia. There are 
about 150 to 160 reactors on order or planned, and upwards of 
300 that have been proposed. Almost all of that growth is in 
Asia, the Middle East, with a little bit in Russia.
    Not a lot here in the U.S., I think primarily because of 
the cheap natural gas. We're seeing big advancements there in 
terms of new permitting. I've got a facility in my district 
that looks to break ground a little bit later this fall. And I 
have got a nuclear plant, it is like a plant that is looking to 
phase out now over the next couple years, the Palisades plant. 
And more power will have to be generated by other sources, 
whether it be renewable, gas, that type of thing.
    So as the U.S. companies are competing primarily with 
China, Russia, France, South Korea, if we are unable to 
successfully compete and are excluded from those emerging 
markets, including the Middle East, will the dominance of 
China, Russia in these markets be beneficial to international 
nuclear security, nonproliferation, and nuclear safety? How 
will that all fit as we lose probably our leading role as we 
see the number of domestic facilities here in the U.S. actually 
be reduced without any real plans to finish construction.
    The new plants won't make up for the ones that are being 
taken offline. How does that work with what is happening 
internationally?
    Dr. Park. Thank you. First of all, I agree with your 
assessment that the U.S. needs to reclaim the leadership 
clearly. There is no question in your statement. And how we go 
about doing that is what is on the table for us to discuss.
    I think we are taking your leadership and guidance from 
this committee to make sure we streamline many of these 
approval processes and so on. But we need to do better. I 
acknowledge that. And in terms of actually not playing in the 
theaters that you just talked about, many dozens of nuclear 
reactors being built and being designed and so on, we need to 
get into that world as quickly as possible and work closely 
with any other sectors to make sure we have a competitive edge.
    Again, our--as a nuclear physicist I am happy to share with 
you we actually have the edge on the nuclear technologies on 
the science and technology side, we just need to better 
transfer these proven technologies in a safe, secure--in a 
safeguarded format. We are doing our very best at the moment.
    Mr. Upton. Mr. McGinnis, do you have anything?
    Mr. McGinnis. Thank you very much. I would say that the 
implications to the United States trending out of its nuclear 
leadership role, which most of the DNA still today around the 
world in nuclear technologies is from the United States and 
some great innovators, if we continue with this trend and if we 
don't find a way to re-vector into a sustainable growth 
potential, it goes far beyond electricity. Resiliency is really 
important. But when it comes to the global, competitive, 
strategic state of play in nuclear with Russia and China, the 
implications go directly into our national security interests 
and not just our energy security interests.
    So it is vital that we begin building again. We have had an 
extraordinary run of our fleet, which is by far the most 
efficiently run in the world. And we still lead as the greatest 
innovators. We know how to disrupt and innovate like other 
industries we are witnessing in aerospace and others in the 
United States. Frankly, our competitors are hoping that we 
don't find and tap that innovation in this moment for nuclear.
    I strongly believe we are at that point where we are in the 
process of disrupting the market, innovating right now. And so 
we have a great opportunity, and I want to say in large part 
because of the really unprecedented, I would say in my career, 
bipartisan support from Congress, including such as is 
reflected in this subcommittee. So thank you.
    Mr. Upton. And before I yield there to my friend Mr. Rush, 
I want to insert into the record a report from the Atlantic 
Council titled ``U.S. Nuclear-Power Leadership and the Chinese 
and Russian Challenge.'' And without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Upton. I yield to my friend, the gentleman from 
Illinois, for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman.
    Dr. Park, you noted Secretary Perry's December 2017 letter 
to this subcommittee detailing the agency's commitment to 
reducing processing time for application on the Part 810. You 
stated that DOE and NNSA have already made significant progress 
in improving efficiency and transparency on the Part 810 
regulatory regime by implementing the Part 810 process 
improvement plan.
    These improvements help to reduce the average processing 
time for a request under Part 810 from a high of more than 18 
months to approximately 12 months. In light of this process 
improvement plan do you see a need for legislation such as the 
discussion draft that is before us today that will amend the 
Atomic Energy Act to improve the process for authorizing the 
transfer of civilian nuclear commerce, technology, and 
assistance. And does this bill overlap with aspects of the 
improvement plan?
    Dr. Park. First of all, I did a really detailed analysis of 
the committee's help and guidance, by the way. That is in 
concert with this committee that we have been developing PIP, 
performance improvement plan. We actually had implemented many 
of your guidance in our planning, by the way.
    For example, as we are developing e810 for example, your 
example, we actually, I think we shared with your staff that 
the internal processing--this is only an example by the way--
instead of waiting for State Department to do--to wait for 
official assurance on operation requirements we actually do a 
parallel process, number one.
    Number two, as it turns out that many of the things that we 
used to do in paper form, the industry partners did not know 
what kind of progress they were making with us, through e810, 
for example. If they are able to have a transparency into where 
are their packages and, you know, ask us how to speed things 
along and so on, there are a lot of improvements that we have 
made. We still need to do more.
    But, again, there are enough of positive signs. Yesterday I 
asked my staff to give me statistics on what kind of uses we 
have for e810. I am happy to report to the committee that the 
improvement of the usage has gone up substantially from last 
year to this year on month-by-month rollout. Compared to 2017, 
2018 usage of e810 is 50 percent higher. It is too early to 
tell whether this will really seal the deal in terms of 
expediting the approval process and so on and so forth.
    But so far, indicators are that we are making a positive 
difference and we are training the interested partners so they 
know how to work with us. So this is all being realized.
    Mr. Rush. Right. So on the proposed legislation, will that 
enhance your ability or will that retract from your ability?
    Dr. Park. So, I don't think I could comment on whether that 
would help or whatever. But I appreciate the fact that there 
are many, many useful guidelines out of this committee. So we 
will look for ways to work with the committee.
    Mr. Rush. Thank you. I am going to ask you another 
question.
    In your written statement, you say that the Avanced Nuclear 
Fuel Availability Act, as written, may be redundant to existing 
requirements and initiatives currently being conducted at the 
agency. You also note that ``allowing a consortium that 
includes industry members to determine who can purchase HA-LEU 
from the Department may present conflicts of interest or an 
unfair advantage to certain players in the emerging market.'' 
Can you briefly discuss both the redundancies that are found in 
this bill with regards to your current practice?
    Also, what recommendation will you suggest to help avoid 
the occurrence of conflict of interest or unfair advantage for 
industry members helping to decide who can purchase HA-LEU?
    Dr. Park. So, appreciate your thoughtful question.
    As it turns out, I would not look at the word 
``redundancy'' as a negative word. The fact that we actually 
have been working with your staff of this committee for quite 
some time we then implemented the redundancy of the word would 
come in the form of, we heard you already. If the bill actually 
incorporates these guidelines, we are happy to absorb, follow 
the guidelines. But we have been doing quite a bit already in 
the form of, we are actually working with any and other parts 
within DOE to collectively promise from industry partners.
    We have some rough numbers that we got. But, again, we are 
actually incorporating that into our projections, as I shared 
with you in my oral testimony. Our supply would run out in 
early 2040s, so we are required to update our projections as we 
collect information from industry partners or other players. 
So, to that extent, ``redundancy'' is not a bad word, number 
one, if that helps you.
    Mr. Rush. I get your point.
    Mr. Upton. The gentleman's time has expired.
    Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. I don't have too many 
questions.
    My primary question is about the discussion draft by 
Congressmen Hudson, Wilson, Norcross, and Peters about these 
microreactors at Department of Energy--I mean Department of 
Defense facilities. I'm not real sure what a microreactor is. 
So I want a definition. And I also want to know who would have 
jurisdiction. Would it be the Defense Department or would it be 
the Energy Department?
    Mr. McGinnis. Thank you very much for that question. 
Microreactors, depending on who you talk to, define it by the 
power level. And one conventional range is 1 to up to 10 
megawatts electric. Some companies are defining it 1 to 30, 
even in the kilowatt range.
    But it is smaller, lower level than what is a conventional 
small modular reactor, number one.
    Number two, this is a very interesting emerging technical 
sector that I am witnessing, we are witnessing right now in the 
United States with regards to microreactors. There are a number 
of exciting designs and companies in different parts of the 
United States, some of which we are working with at the 
Department of Energy on supporting an appropriate technical 
role early stage on supporting the proving out of these 
microreactors.
    In fact, we have an MOU with one such microreactor where 
they are targeting 2021 to have the first demonstration built 
at Idaho National Lab, just to give you a sense of how fast 
this is moving. These microreactors, the key--I know about this 
from the fuel supply--is they all, virtually all, require high-
assay LEU, maybe smaller amounts, but if they prove out the 
business line they are going to, they will be selling many of 
them.
    Now, on the question of the Department of Defense and 
Department of Energy, what I can say is that we are certainly 
working with the Department of Defense. We are in 
communications with them. We are sharing our information and 
know-how on microreactors with the Department of Defense, more 
than one part of the Department of Defense. We are sharing 
information with them from the infrastructure side, the 
Assistant Secretary as well as from Army. And we see, frankly, 
great potential, significant potential with regards to the role 
and value of microreactors.
    And I think, frankly, this could be one of those surprise 
disruptive, very positively disruptive sectors that may, may 
catch a lot of us by surprise in a very good way. And I am 
excited about it.
    Mr. Barton. I yield back.
    Mr. Upton. Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman. I appreciate having 
this hearing today.
    Nuclear energy technology is an important part of 
increasing our zero mission energy sources. We need this energy 
generation and the clean air standards it can help us achieve. 
And for these reasons, and many more, I supported research and 
development in next generation energy technologies, 
particularly advanced nuclear development in small modular 
reactors.
    And I am one of the, with Mr. Hudson, one of the lead 
sponsors of the draft bill before us today. And I appreciate 
his work on that.
    My bill would--our bill would--direct the Department of 
Defense and Department of Energy to work together in analyzing 
how microreactors can bolster energy resiliency for national 
security.
    In my home district in San Diego and in the nearby region, 
we have piloted microgrids at Marine Corps Air Station Miramar. 
We have tested battery generation rucksacks at Camp Pendleton, 
and performed other energy development project partnerships 
between the Navy and the University of California at San Diego. 
DoD has been a willing and helpful partner in testing clean and 
innovative energy sources. It is not because they are tree 
huggers or doctrinaire environmentalists, but from their 
perspective energy resilience is a life and death question.
    For instance, the fewer batteries that Marines have to 
carry, the more ammunition they can take in their pack; and 
that could be what saves their life in a firefight in a faraway 
country. It is a stark reminder of how energy resilience is 
critical. I think the partnership in this bill makes sense and 
I hope to see it advance quickly.
    To Mr. McGinnis, I had a question about research funding. I 
am an advocate for early stage innovation and research support 
from the Federal Government. I wanted to just give you an 
opportunity to say if you think we are missing any areas of 
nuclear research and innovation, where we need to bolster that 
investment.
    Mr. McGinnis. Thank you very much.
    There, as indicated, we are in the process of revitalizing 
our nuclear energy sector. We made it clear that we have 
experienced great degradation, frankly, including in our test 
capabilities, whether it is not having fast neutrons for a fast 
spectrum reactor to be able to test those key components for 
the next class of reactors coming in, or advanced fuels, or 
whether it is other technical capabilities that we need as a 
key element of our nuclear sector.
    So I can say, first of all, that the authorization language 
that we have seen today, and also the appropriations has been 
very important to support our efforts to revitalize. We don't 
just rely on Idaho National Lab, although Idaho National Lab is 
a flagship lab for nuclear energy, we are relying on Oak Ridge, 
we are relying on many of the others, and Lawrence Livermore 
and other labs. But if we are going to get back in the game we 
have got to get our fuel cycle R&D test capabilities back to 
where it belongs, back in a robust area.
    We are on a good trajectory now. And all I can say is 
strong support is greatly appreciated as we work with a 
private/public posture where we are finding that sweet spot to 
support and dispatch the technical challenges that with our 
labs and our capabilities that our U.S. industry can most 
benefit from.
    So, thank you very much for the support. And we stand ready 
to follow additional laws that may come in that you are moving 
through.
    Mr. Peters. Maybe I will just explore a bit more kind of 
what, what areas you might see us investing in, what particular 
areas in nuclear that you think offer promise?
    Mr. McGinnis. One is, of course, the fast test capability 
is very important, having testing capabilities for the new 
class of reactors. We are experience--we are seeing a lot 
through our new industry funding opportunity mechanisms where 
it also becomes an opportunity to hear from industry where they 
most need us. Whether it is testing, whether it is benchmarking 
data, simulation modeling and simulation, even supporting the 
NRC with our modeling and simulation and supporting their 
development of advanced guidelines, frankly, industry needs us 
to support them in the data and benchmarking as they go through 
certification. That is one of the biggest challenges for our 
new innovators.
    But also, having the testing capabilities, just continuing 
to support our reinvestment in establishing our test capability 
for both the front and back end and for reactors, fuels. And 
also, very important, if not most important, is our efforts to 
support the continued life and longevity of the fleet of 
reactors operating in this country now.
    Mr. Peters. Thank you very much. And thank you, Mr. 
Chairman. I yield back.
    Mr. Upton. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. McGinnis, I have a lot to go through so let's be 
efficient with our time if we can. Are you aware of an 
enrichment facility located in Eunice, New Mexico?
    Mr. McGinnis. Yes, indeed.
    Mr. Shimkus. Is that enrichment facility licensed by the 
Nuclear Regulatory Commission?
    Mr. McGinnis. Yes, indeed.
    Mr. Shimkus. In order to meet future demand for high-assay 
low-enrichment uranium, is that facility capable of making the 
material for commercial use? If the facility secures the 
appropriate modification to its NRC licensing basis?
    Mr. McGinnis. I believe yes.
    Mr. Shimkus. Are you aware of a recent GAO report that 
found DOE's cost estimate to develop new enrichment options 
lacked credibility because it was not well documented or 
accurate?
    Mr. McGinnis. I am aware of the GAO report in general.
    Mr. Shimkus. And have made no judgment on being aware of 
the GAO report as far as accuracy?
    Mr. McGinnis. I would have to get back with you on the 
specifics on my view on that.
    Mr. Shimkus. It is just important because as you go forward 
if GAO's analysis is not accurate then we don't want to do our 
basis of decision making on that fact.
    Based on the availability of U.S. enrichment capabilities 
for commercial use would you agree that the U.S. Government 
does not need to spend billions of dollars of nondefense money 
to subsidize Government-backed competition to an existing 
operational facility?
    Mr. McGinnis. I certainly don't support subsidies. But I 
think it is premature to say whether there would be a need for 
a second supply for enrichment. I can tell you that some 
companies have come to me strongly encouraging the support of 
at least two suppliers to have good, robust competition and 
pricing. Notwithstanding, though, we are very fortunate and 
very thankful for having that top world class facility in New 
Mexico in the form of LES.
    But the question is whether--and I am just basing it on 
what we are hearing from certain industry--whether that is the 
final end state if they end up establishing a cascade for high-
assay LEU, or do you want to get to the point where you have a 
couple of suppliers, such as in the fuel fabrication business 
where you have pretty strong competition because--and pretty 
good pricing because of that competition.
    Mr. Shimkus. Well, you know, other pricing debates that we 
have in the other realm of fuel. So, also we want, we really 
want to be cautious about in this time of fiscal constraints. I 
do believe in competition. I do believe that that drives that 
through. But we have dealt with Government subsidization of 
helping infrastructure to move to markets that weren't 
existing. Not saying that they needed competition, but there 
was no business plan or model for that.
    So, again, I am just raising some concerns.
    Dr. Park, if the United States funds a Government-sponsored 
facility to support both defense and nondefense purposes would 
you be concerned that this could send conflicting messages to 
the international community about developing dual-purpose fuel 
cycle facilities?
    Dr. Park. So U.S. segment has made a commitment to 
international partners. For example, when they downgrade from 
HA-LEU to lower level LEU, we would provide the fuels because, 
actually, it's going to be the right thing for us to do to 
minimize the risks of HA-LEU falling into the wrong hands. So 
we need to follow through on those commitments. And we also 
follow through on the medical isotope production efforts and so 
on.
    The first example that I used is high performance reactors 
that require the use of HA-LEU and so on. So there are 
different examples. But to answer your question, it actually 
depends on case by case. We need to actually analyze the 
benefits and risks and then make appropriate recommendations. 
So I don't think that we could provide some general, overall, 
you know, response that this is what we are going to do. It 
really depends on who the players are, who are partners are, 
and so on, and other considerations that we need to fold in.
    Mr. Shimkus. Yes, and I was listening carefully to my 
colleague Scott Peters from California. And when he was asking 
really Mr. McGinnis what other things, you know, he was trying 
to reach what other things should we be looking at? My point 
would be we need to look at the front end here to address the 
international concerns and the commitments, but also the 
Government being involved in an area where we may not need to 
be involved, and how much of those nondefense dollars which are 
always, we are scrambling for, goes to that when there is an 
available, looks like there will be an available commercial 
production facility already in place.
    So those are my concerns. We have aired them out now 
publicly. And with that, Mr. Chairman, thank you. I yield back 
my time.
    Mr. Upton. The gentleman yields back. The Chair would 
recognize the gentleman from California, Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Just last week Mr. Flores approached me and asked me if I 
would support his bill on HA-LEU. And I think it is a good 
bill. I am glad to do that. But I do have a concern about 
proliferation. I think that is something that we all are 
worried about.
    The world has changed in the last few months, and I am 
worried about where we are going with additional capabilities, 
especially if it is in the commercial sector. Could you address 
that, Mr. Park?
    Dr. Park. Your concern is to certify everybody in this room 
and throughout the Government system. But, again, we have not 
relaxed reviews and assessments of how we share our nuclear 
technologies with our partners, international partners and so 
on.
    Mr. McNerney. Were you to have more commercial control of 
that information?
    Dr. Park. From my perspective, and obviously Ed McGinnis 
actually should chime in, but again as the person responsible 
for issuing the safeguards aspect of sharing the nuclear 
technologies, we first have to evaluate the whole big picture. 
It is a balancing act. Cannot delay forever.
    Mr. McNerney. Right.
    Dr. Park. We cannot expedite without actually doing the 
right analysis so we know what the risks are and we need to 
mitigate those. And as far as country partnership and the--what 
we are actually concerned about is more of with the 
technologies that we share with country A could be sent to 
somewhere else without our knowing. So safeguards is not one-
to-one, it's actually one of many that we have to worry about.
    So that is where my guys come in to do a very careful 
analysis working with the State Department and other 
interagency partners.
    Mr. McNerney. Mr. McGinnis, do you see SMRs and 
microreactors becoming prominent in the next decade or two?
    Mr. McGinnis. Yes, very possibly I do. And they offer many 
attributes that one does not see in the current class of 
reactors, from far more passive safety aspects. Some of these 
reactors will--are designed to safely shut down even in the 
event of a complete loss of power indefinitely, or a complete 
loss of coolant.
    Some of these reactors, micro and others, reactors are 
smaller source term, more manageable. Some of these have life 
of core where you do not need refueling such as every 18 months 
for a fuel reactor, so, or a large reactor.
    But with respect to international I would just like to make 
one thing very clear in my view. I have worked international as 
the Deputy Assistant Secretary for 11 years. There is no other 
country on this planet that has a higher standard, more 
stringent standard on nonproliferation and safety than us. I 
can assure you the Russians, the Chinese, and the others, they 
do not insist on the level of nonpro and safety, even in our 
current 123 and our Part 810 process and the others. We are 
very proud of it. And I think you will hear the U.S. industry 
continue to say that is a key aspect of our product, that we 
bring the safest products and with the highest levels of 
nonproliferation.
    Mr. McNerney. Well, I think the SMR promise is good. And I 
am looking forward to seeing that realized in our country. And 
I recognize, along with everyone here I think, that the 
industry is struggling at the moment. But how do we make it 
easier for the industry to prosper without harming the NRC's 
ability to regulate effectively?
    Mr. McGinnis. Yes, indeed, that is the question. We, in my 
view, we want the most efficient process for the regulatory 
reviews. And we want the least costly but in a manner that does 
not compromise in any way, shape, or form the current standard 
of safety. That is our objective.
    The Department of Energy is ready. We made it clear with 
the NRC and we continue to do it, make all of our capabilities, 
model, in simulation and testing, available to help them and 
help the vendors go through this process.
    Mr. McNerney. Thank you. I yield back, Mr. Chairman.
    Mr. Upton. Mr. McKinley.
    Mr. McKinley. Thank you, Mr. Chairman.
    Not long ago the Defense Science Board put out a report 
that said our grid system, our national grid system is fragile, 
vulnerable, and near its capacity. And as a result of that, or 
perhaps influenced by that, DoD has been expressing more and 
more of an interest in using small nuclear reactors, and much 
like maybe Barton was talking about, the microreactors on plant 
or on bases so that they could be islands of independence from 
the grid, a fascinating concept with that.
    Do you, do either of you agree with the Defense Science 
Board, with their conclusion? Because we have been having quite 
a few hearings about this grid reliability, about reliability 
and resilience, do you agree with their, their findings that 
there are problems with the--with reliability and resilience?
    Mr. McGinnis. I agree that resiliency is a huge issue. And 
it is only going to get more challenging if we don't get new 
baseload plants coming in, including nuclear.
    I would also say there is still no other energy source on 
the planet that compares to the attributes of nuclear power: 
clean baseload, no refueling for at least 18 months. The new 
SMRs coming in they could possibly go 4 years or longer.
    With regards to resiliency and microreactors and the 2016 
Defense Science Board, we think it certainly, while we see that 
it is driving the Department of Defense in evaluating their 
options with microreactors now for that very purpose of 
resiliency. Obviously, resiliency----
    Mr. McKinley. If I could on that, I might disagree slightly 
with you on that, and that is your own department there--excuse 
me, DOE, has come out with its own report saying that actually 
to improve reliability and resilience it is nuclear and coal 
because of the storage, the capabilities of onsite storage and 
the lack of interruption of supply.
    So you are saying you share that concern?
    Mr. McGinnis. Oh yes, indeed.
    Mr. McKinley. Let me go to the next issue that is a little 
bit more sensitive to this. Because I am fascinated with the 
nuclear industry. We don't have any plants in West Virginia but 
we did have a shipping port that was not very far from where I 
live and in my district.
    But not long ago, it was just last October, The Hill came 
out with a report that talked about how Russia's Putin was 
trying to influence and get involved and take more influence, 
control over our atomic energy business in the United States. 
And he was using, according to the article, there was 
litigation over bribery, kickbacks, extortion, and money 
laundering, all that took place in and around sale of Uranium 
One and how we--how CFIUS apparently dropped the ball and 
allowed us to lose a lot of control of our uranium.
    So with this issue of nuclear energy as much, how do we, 
how do we restore the confidence that we are not, we are not 
allowing a foreign entity like Russia to influence our nuclear 
energy field, given that the history. And I am curious, what 
has taken place internally to reverse the damage that was done 
under the previous administration as a result of this?
    Mr. McGinnis. I would say first of all it is very important 
to have a diversity of supply. In the United States there is 
about 5 percent of the uranium that comes from U.S. uranium 
mining miners. That is an historic low.
    For enrichment, apart from LES, again which we appreciate 
for an enricher in the United States, but the fact is we have 
zero American-owned enrichers.
    With regards to supply, between 17 and 20 percent of all 
the enrichment that comes into our Nation's 99 reactors comes 
from Russia. There is a suspension agreement that limits them 
to go where they cannot supply more than 20 percent. That 
suspension agreement is slated to end in 2020. The Department 
of Commerce is following that very closely.
    I can't speak to the details of what you said, but I can 
say that it is very important for us to have a balanced and 
diverse supply, including strong supply capability for the 
front end, as was mentioned, for fuel supply in this country.
    Mr. McKinley. And my time has expired. So I just going to 
ask you if you could please, could you stop by my office? I 
would like to have more of a conversation about this, how we--
what are the next steps that need to be done.
    Thank you, and I yield back.
    Mr. Upton. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman and Ranking Member Rush, 
for holding this hearing.
    We are discussing these four important bills that deal with 
various aspects of domestic nuclear energy. As a fuel source, 
nuclear energy generates 20 percent of our domestic power and 
constitutes over 60 percent of the country's clean energy. 
While renewables have grown by leaps and bounds in recent 
years, I think it is important to remember that nuclear 
generation is the original environmental friendly source of 
power generation.
    While most of our fleet is under strain from economic 
factors, the legislation we are discussing today has the 
potential to reshape our focus and bring our nuclear fleet into 
the 21st Century. I particularly want to thank my friend 
Congressman Doyle for working on language to address the burden 
that our NRC fee structure places on plants.
    Mr. Park, Mr. McGinnis thank you for being here today. I 
would like to talk about my friend Mr. Flores' bill, the 
Advanced Nuclear Fuel Availability Act. This legislation is 
aimed at addressing many of the challenges faced by the high-
assay low-enriched uranium fuel, HA-LEU, or HA-LOW. I don't 
know how, in my Texas accent.
    Mr. Park, would you talk about how the enriching process is 
different compared to the typical uranium?
    Dr. Park. If you are talking about HA-LEU or H-A-L-E-U, 
right now the only way we can do it is by downblending from the 
aging stockpile that we have. Right now we can only enrich up 
to 5 percent. The HA-LEU is over 5 percent, below 20. So you 
need more work to get to HA-LEU, yes.
    Mr. Green. In 2016, the Office of Defense Programs began 
working to establish domestic uranium enrichment capability in 
time to establish a supply of need for tritium production. What 
is the current domestic capacity for this production? And what 
do you expect the DOE capacity to be going forward when it 
comes to HA-LEU?
    Dr. Park. So, right now our current projection is we will 
run out of tritium production capacity in about 20 years or so 
from today. 2038 is the projected time line. So we are actually 
in the Office of Defense Programs at NNSA is in the process of 
looking at the options to see if we can actually produce our 
own enrichment enriched uranium for tritium production. And 
what we are looking for is industry partners working with Ed 
McGinnis and others to actually share with us their 
requirements.
    It might be possible for us to fold in that requirement on 
top of DOE. We are actually very anxious to look for purpose of 
opportunity with the industry partners. And so it is in 
progress.
    Mr. Green. What are the challenges that transportation of 
this highly enriched uranium lead to in comparison with the 
typical levels of enrichment?
    Dr. Park. So, obviously the 5 percent is the LEU. When you 
go to higher level of enrichment it requires totally different 
containers, transportation methods, and so on and so forth. And 
the quantity--and this is worth pointing out, and I'm going to 
hand it over to Ed to talk about this--quantity we are 
potentially facing is much larger than we ever faced. It 
requires a different look at the--a bit of R&D on top of 
everything.
    Mr. Green. Mr. McGinnis?
    Mr. McGinnis. Yes, indeed. In fact, transportation is key. 
I would like to express appreciation for this subcommittee and 
the bill to address the issue of transportation. I think it is 
time, very timely to look at it now. We need to plan in advance 
to support, hopefully, a successful advanced reactor fleet 
coming in through the pipeline with new high-assay LEU fuel.
    As Dr. Park said, right now we are relying on a limited and 
ever-decreasing supply of high-enriched uranium. Ultimately 
there are a couple of additional pathways one can secure that 
supply. And the most traditional way is through enrichment.
    And as Dr. Park said, the Department of--well, the NNSA 
side of the Department of Energy is looking at it from defense 
requirements primarily in tritium production. So that time line 
I would suggest--and this is part of the challenge--we may have 
a much earlier time line in the commercial sector, maybe as 
soon, as I indicated, mid-2020s where the commercial sector 
will need high-assay LEU. When you get that, you also not just 
need enrichment cascades, but you are going to need conversion, 
you are going to need fabrication, you are going to need 
actually new NRC license packages, transportation packages. So 
there is quite a lot to be done.
    Mr. Green. One last question. Do you think----
    Mr. Shimkus [presiding]. The gentleman's time has expired.
    Mr. Green [continuing]. The legislation addresses these 
challenges?
    Mr. McGinnis. I would say that I appreciate the focus. We 
do believe that it addresses the challenges. And we stand ready 
to work with the subcommittee.
    Mr. Green. Appreciate the chairman.
    Mr. Shimkus. Pretty sneaky getting that last question in 
there.
    The chairman now recognizes the gentleman from Illinois, 
and one of the authors of this legislation, Mr. Kinzinger, for 
5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. And thanks for your 
leadership on this issue as well. And thanks for holding 
today's hearing.
    As many of you know, my district is home to four nuclear 
power plants. And I continue to be deeply concerned that we are 
ceding U.S. global leadership in the nuclear space. I 
introduced H.R. 1320, the NUKE Act, with Congressman Doyle to 
make common sense reforms in the NRC recovery structure, fee 
recovery structure. And I am pleased to see it included.
    I still like NUKEPA, but in the spirit of our Founding 
Fathers and compromise, I was happy to relent on that.
    Section 2 of Congressman Johnson's bill requires the 
Secretary of Energy to report on all legal, regulatory, and 
commercial barriers imposed on our domestic nuclear industry. 
Compare those to our foreign--compared to our foreign 
competitors and recommend ways to improve our global 
competitiveness.
    Dr. Park, as part of your confirmation process you stated 
that you would continue to work with American companies so that 
they may engage in civil nuclear commerce around the world. 
Based on your previous experience, as well as your initial 
impressions leading NNSA's Defense Nuclear Proliferation 
Office, have you identified some of the actions that inhibit 
competitiveness at the U.S. nuclear industry?
    Dr. Park. So the standard practice asked me that. As I 
mentioned earlier, we look at the big picture and we do the 
best we can. And now the challenge is that the world is 
evolving so fast, as it was stated, in the last four months 
alone the world changed. And that there are new actors coming 
in to have more nuclear power and so on and so forth. And I 
need to recognize the fact that our policies, and procedures, 
and processes are a little bit behind time at times, and that 
we need to find a way to accelerate it and make it more 
meaningful so that we can apply the latest standards.
    So I would not necessarily call them deficiencies. That is 
how our system works. But at the same time, I appreciate your 
involvement and the committee's engagement so we can actually 
better implement the guidelines you might give to us.
    Mr. Kinzinger. Thank you.
    Mr. McGinnis, you have heard me speak about the DOE's 
Nuclear Energy International Program. Could you offer some 
preliminary observations about how our foreign competition, 
specifically the Russians and the Chinese, use state-backed 
resources to strategically use their civilian nuclear programs 
and undercut our interests?
    Mr. McGinnis. Indeed they do. And they use the full breadth 
of resources that they can draw on from their respective 
governments. I have seen it firsthand with Rosatom in Russia 
and the Big 3 utilities in China.
    The competition, one cannot overstate how foreboding and 
how challenging it is for American companies to compete against 
states. That is the fact. They bring financing. They bring 
deep, deep offers for training, for resources. In many other 
areas we are working really hard to try and support in our 
own--let me back up and say what we don't want to do is try and 
compete and be seen like a Russian company, like a Chinese 
company. We believe we are far more innovative, far more 
appealing. We bring our systems, our safety and security. So we 
do believe we can compete and win.
    But it takes strong Government support and advocacy from 
the United States. And it takes--and I think we need to all be, 
you know, just always continue to say we need to try and do 
better, in our efficiency for our regulatory reviews, for our 
license reviews. We need to continuously try and maintain the 
high level of safety while making it as easy as possible for 
these companies that are already in a formidable position to be 
able to complete and win.
    Mr. Kinzinger. Let me ask you, and I am sorry to do this, 
but put yourself in the sick and twisted mind of Vladimir 
Putin. What would be the reason you would want government 
support for the nuclear industry? What is your 10- or 20-year 
goal in that? What do you want to see a world that looks like 
X?
    Mr. McGinnis. Well, in just my own opinion, again having 
worked with Rosatom employees for quite some time in a 
competitive way, first of all they want to dominate the nuclear 
sector. I don't think, at least my colleagues, I have had 
difficulty with my Russian company colleagues seeing the virtue 
of competition. It is more of a monopoly objective.
    Mr. Kinzinger. And let me ask you more specifically, do you 
think Vladimir Putin looks at this as an economic benefit to 
his country or a national security benefit and ability to 
spread influence of Russia?
    Mr. McGinnis. Oh, so my first point was economically or 
sectoral-wise dominating as much as possible, but strategically 
nuclear energy goes well beyond, certainly in foreign 
countries, well beyond just electricity on the grid. So when 
one wins a commercial nuclear deal for a reactor, it is a 100-
year relationship. It is a unique leverage point one has with 
those foreign countries. And it is, frankly, coveted by our 
competitors from a strategic perspective.
    Mr. Kinzinger. Thank you. And thanks, Mr. Chairman, I yield 
back.
    Mr. Shimkus. The gentleman's time has expired. The Chair 
now recognizes the gentleman from Pennsylvania, Mr. Doyle, for 
5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    Dr. Park, I appreciate the Department's commitment to 
streamlining the processing times to export nuclear-related 
goods under the Part 810 process. International markets 
represent a critical opportunity for domestic nuclear companies 
and their suppliers. And the ability to export these products 
remains important for U.S. companies. These opportunities can 
mean hundreds, even thousands of jobs, for hardworking 
Americans.
    My question is, how is the NNSA working with other agencies 
to ensure that this trade can continue to support American jobs 
without violating the NDAA review requirements and without 
posing a threat to national security? And more specifically, 
can you provide more information on the agency's overall 
strategy with regards to exports to China?
    Dr. Park. So, when it comes to China, there is a very 
specific requirement under NDAA 2016 that requires OD&I review. 
And it gets very difficult. So I would be more than happy to 
provide additional information.
    When it comes to NNSA doing its job to help accelerate the 
appropriate sharing, peaceful use of nuclear technologies and 
so on, I think that with this committee's help and assistance 
and guidance I think we have got the right frame of mind in 
terms of what we can do. For example, as I stated earlier, 
there is parallel processing. In other words, we don't wait for 
State Department to achieve, to get the country assurance on 
safeguards. We actually do the processing as if it is a done 
deal and we converge at the end.
    So instead of doing things in serial or the sequential 
manner, we do things in parallel at the same time. This new 
e810 process that we have adopted that you encouraged us to 
pursue is putting more what I call a transparency to all the 
users. They know what the package is. It is actually worth 
repeating a couple more times because instead of--in the past 
they didn't know where their package was in the approval 
process. But now they can actually call us.
    You know, some of the stories that my staff have been 
sharing with me, for example. You know, a couple of them got to 
know how to use the e810 system. It took them a while, but now 
they are thinking, the program managers are sitting in the back 
or they help because they can actually move things along much 
faster than ever before. And these are repeat users that we are 
talking about. And I am happy to report to you, again, roughly 
15 percent of the users from the commercial sector using our 
e810, I think that number would grow.
    And so there are some really good signs with the e810 
process. And, again, I need to caution all of us, you know, 
much of the delay does not come from our side. But, again, we 
have to wait for country assurances through the State 
Department, and sometimes that takes a year or more.
    Mr. Doyle. I would appreciate you corresponding with our 
office. We'd like to get a better sense of the strategy with 
regards to China. And I would appreciate that.
    Dr. Park. Yes.
    Mr. Doyle. Mr. McGinnis, I am glad to see your department's 
commitment to nuclear energy. We all know that investments in 
research and advanced nuclear technology are important, and in 
addition to supporting our existing fleet. I am concerned, 
though, that the President's fiscal year 2019 budget has 
proposed to reduce funding for nuclear energy by cutting $259 
million below the FY 2017 enacted level.
    Do you think that reforming the NRC fee structure could 
reduce the downward pressure on nuclear plant operators?
    Mr. McGinnis. With regards to the--thank you very much for 
the question. I respectfully would need to defer to the NRC as 
an independent agency on the fee structure. But I will say 
overall, obviously as indicated earlier, the fees are a 
significant factor in many U.S. companies attempting to get 
their technologies licensed and their operation license 
received. So it is a very significant factor.
    And so we certainly support the most efficient, least 
costly pathway with the highest standards of safety that makes 
us world-class products that we have to provide.
    Mr. Doyle. Let me ask you this, too. I do think that energy 
markets currently consider carbon, the carbon-free attributes 
of nuclear energy. And we have seen State policies that take 
these attributes into account. And I want to--do you support 
States' ability to properly account for these attributes?
    Mr. McGinnis. Certainly respect the States' decisions to 
do, to decide how to do that. That is the States' rights. And 
so we approach it from a resiliency perspective, trying to 
address the structural issues that, frankly, at times don't 
price, or don't price the value of resiliency.
    But with regards to States, certainly we respect that 
approach to support their electricity sources.
    Mr. Doyle. Thank you. I yield back, Mr. Chairman.
    Mr. Upton [presiding]. Mr. Long.
    Mr. Long. Thank you, Mr. Chairman.
    Mr. McGinnis and Dr. Park, I have got a question for both 
of you. Dr. Lyman's testimony suggests that any country that 
has access to light-water reactor technology is just a step 
away from becoming a nuclear weapons state. However, his 
testimony neglects to mention the International Atomic Energy 
Agency and international safeguards that are in place in 
addition to the U.S.'s capability to monitor nuclear fuel cycle 
programs around the world.
    Would you please describe the respective roles of NNSA and 
the Office of Nuclear Energy in supporting the IAEA program?
    Dr. Park. So, yes. NNSA does work closely with IAEA. In 
fact, we provide much of the technologies to IAEA and train 
them, and in terms of light-water reactor and so on and so 
forth.
    Any nuclear technology that actually produces plutonium we 
care about, we worry about. And there are no exceptions. As I 
stated earlier, we actually look for who these partners are and 
how they actually protect the materials, spent fuels, or 
whatnots, to make a determination as to what kind of 
arrangement we could have. But, again, there is no one-size-
fits-all approach that we have.
    But, again, the light-water reactor, the fuel does have 
plutonium built in, so we need to worry about the results. We 
cannot ignore that aspect.
    Mr. Long. Mr. McGinnis?
    Mr. McGinnis. Yes. The Office of Nuclear Energy also works 
closely with the IAEA and also the NNSA. And we do commit a 
significant amount of funds for that work, including for 
safeguards, and security, and safety ultimately, both directly 
and indirectly.
    I would say one other point. And this is my view, it is 
just reality. We have these large state-owned suppliers. They 
are going to provide the choice if we don't provide an option 
to foreign countries that are considering nuclear energy. If we 
just say no, then they will very likely still proceed. And they 
will just proceed with another supplier with a lower level of 
safety and security. And we will also have lost a great number 
of other benefits, including a 100-year relationship with the 
highest standards of safety and security.
    Mr. Long. Again for both of you, can you briefly describe 
the U.S. programs to track and identify emerging international 
nuclear programs?
    Dr. Park. So, obviously, there is open literature. And we 
actually do track, you know, the progress being made throughout 
the world. And we have avenues, as well, that I am more than 
happy to brief you at appropriate locations.
    Mr. McGinnis. And we do participate in the materials 
tracking within the Department, with NNSA playing a lead role.
    Mr. Long. Well, would you agree with Mr. Lyman's assertion 
that any country that has access to nuclear energy can easily 
develop a nuclear weapons program, presumably without the 
international community's knowledge?
    Mr. Park. So, as a physicist, is it a possibility? Yes. Is 
it likely? It is very difficult. Especially at what we call the 
production scale, I hope our monitoring technologies, and our 
partnerships with IAEA, and our international partners we 
should be able to do a good job on who these actors might be.
    And should I be concerned? Of course. But, again, we have 
adequate technologies to help us to monitor the situation 
globally. And, again, I am more than happy to provide you with 
additional information.
    Mr. Long. Yes, well that is what I would hope. And that is, 
that is what I would think. But I just wanted your opinion.
    Mr. McGinnis, do you care to weigh in?
    Mr. McGinnis. I do not believe it would be easy.
    Mr. Long. OK, thank you.
    For you, Mr. McGinnis. In your testimony you mentioned the 
advancements around nuclear reactor design that are currently 
underway. Can you talk a little bit about these technologies 
and, if proven to work, how they can help revolutionize or 
revitalize, excuse me, revitalize our nuclear energy sector?
    Mr. McGinnis. Thank you very much. Yes, we are in my view 
at the precipice of an entirely new, innovative phase in the 
U.S. nuclear energy sector. I don't say that lightly. We are 
seeing it happen right now.
    The advance reactors such as the advanced SMR for the first 
time going through the NRC, receiving the first phase approval, 
including passive safety features, validates that they do not 
need any electric pumps or motors in order to be able to safely 
shut down because of the passive safety system. This is just 
one example of many of the advanced reactor designs that are 
coming out of the United States' nuclear innovation community 
that offers a step change, step change improvement on what is 
already strong safety in our reactors, number one.
    Number two is their versatility. We are witnessing reactors 
being designed that are unlike anything we have seen. We have 
reactors, advanced reactors that are designed to be able to go 
from 0 to 100 percent power in 60 minutes. That is load 
following. We haven't seen that with large reactors.
    We have finance ability for the advanced reactors unlike 
what we have seen. Instead of $8 billion per unit, not 
including financing, we are talking maybe a billion, maybe a 
billion and a half for a substantial generating capacity.
    We also have distributed opportunity where we have the 
opportunity now to place smaller reactors, modular scaled-up 
reactors in locations we never could do with a large reactor. 
So, product choice, versatility in application, desalinization 
or hydrogen production, this is an entirely new class of 
disruptive reactors, and that is why we are so excited about 
this.
    Mr. Long. This is a very important hearing we are having 
here today. And I want to thank both of you for taking the time 
to be here and sharing your knowledge with us.
    Mr. Chairman, I yield back.
    Mr. Upton. The gentleman yields back.
    Mr. Tonko.
    Mr. Tonko. Thank you. Thank you, Mr. Chair. And thank you, 
gentlemen, for joining us and for your insights on these bills.
    Administrator Park, Dr. Park, I have a few questions on the 
discussion draft that addresses the Part 810 process. It is my 
understanding that Section 3 would expedite the review process 
for, and I quote, ``low proliferation risk reactor 
technologies.'' However, I do not believe that these 
technologies are defined in the draft.
    Can you offer us a sense of what types of technologies 
would be captured by these low proliferation risk reactor 
technologies?
    Dr. Park. Yes. So, obviously this is interagency effort. 
DOE does have a lead on determining what would go in the 
category, but at the same time we need to coordinate that 
review process with the other agencies, including State, for 
example. Again, it's to a large extent a case-by-case. But 
there is no single category that says if it falls in the 
category, it's free for all. It doesn't work that way.
    Really because one agency appreciates or gives us 
flexibility at the same time as different challenges. But what 
is in the middle is country assurance. And that actually 
changes the calculation by the way. If it is a country that we 
have a 123 agreement with, it is straightforward. But, again, 
if it is not one of those countries, or China, India, or other 
countries it is very difficult. So we need to look at it from 
what I call a totality or big picture perspective.
    So to that extent you can actually categorize as light-
water, low-risk, et cetera, but it really depends on who the 
recipients are.
    Mr. Tonko. Thank you. Currently, would those Part 810 
reviews qualify as low proliferation risks?
    Dr. Park. I need to get back to you. I don't, basically 
don't have specifics on.
    Mr. Tonko. OK, thank you. Does the Part 810 process look 
just at the technology or also the conditions within the 
potential partner country? That is to say is the current review 
process the same for each potential partner country?
    Mr. Park. I also need to get back to you because it is 
quite different from, you know, case to case. So maybe it might 
be more appropriate for us to give you solid data with a 
sample, with great examples as to what we are doing for several 
countries so you have appreciation for the challenges that we 
have.
    Mr. Tonko. OK. And you will forward that to us?
    Dr. Park. Yes.
    Mr. Tonko. Your testimony mentions that currently the 
lengthiest part of the review is the time it takes partner 
countries to provide the required governmental nonproliferation 
assurances. Can you give us some examples of these assurances?
    Dr. Park. So, we actually apply conditions so that they can 
actually enjoy U.S.-developed technologies. But these 
conditions require that they do not share with the third 
parties, and they do not actually modify without conditions and 
so on. It goes on and on and on.
    Oftentimes the host countries or the recipient countries 
when I think about this because there are obviously 
ramifications for they sign up for some things without fully 
understanding. But so it's along that line that satisfies.
    Mr. Tonko. But are these assurances different for each 
export partner country?
    Dr. Park. To a large extent. There is variation, obviously. 
As, for example, countries that we have a 123 agreements went 
through the review process with us at the highest level, so 
they know the what I call boundary conditions as to how to 
receive our U.S.-developed technologies.
    But, again, when you leave that small group of countries, 
which is 20-some-odd countries, the rest of the world still 
needs to go through the category process, how they respond to 
our requests and so on. We do a lot of hand holding but there 
is a limit as to how much we can do. We cannot speak for their 
countries.
    Mr. Tonko. My understanding is that the discussion draft 
would allow DOE to continue the review while it waits for the 
State Department to secure the assurances. Would this bill 
reduce or limit the time it takes for the State Department to 
secure those given assurances?
    Dr. Park. It is a separate process, somewhat decoupled. At 
the same time because of our experience working with our 
international partners and our industry partners who are 
actually trying to export the technologies, I think we can 
actually give them the right answers. It is up to them whether 
to take them or not. But, again, we can actually show them what 
steps they need to take. And, again, this is open to test, if I 
can use that phrase.
    Mr. Tonko. But do you think there should be limitations on 
how long the State Department might have to obtain these 
assurances?
    Dr. Park. So, it also depends on whether we have agreement 
with a country. I would stress, as was stated, that it really 
depends on what kind of assurance they provide us to safeguard 
our technologies.
    The biggest fear I personally have is our technologies go 
into wrong hands and we don't have any assurance that we know 
what they do with that technology that we have transferred. 
Safeguards concerns are monumental in what we do, even in the 
e810 process.
    Mr. Tonko. So those limitations are--could be critical.
    Dr. Park. Yes.
    Mr. Tonko. With that, Mr. Chair, I thank you and yield 
back.
    Mr. Upton. The gentleman yields back.
    Dr. Bucshon.
    Mr. Bucshon. Thank you, Mr. Chairman.
    The Department of Energy's public/private partnership with 
Nuscale Power which followed a similar effort that led to the 
licensing and construction of Southern Company's new nuclear 
reactors has proven to be a successful model to address a 
costly regulatory approval process for new nuclear 
technologies. Congressman Flores' legislation builds on that 
model with a public/private partnership for advanced nuclear 
fuel needs.
    Mr. McGinnis, DOE's Isotope Program includes an industry 
consortium to help meet specific needs, material needs of 
californium-252, which is used for an assortment of industrial 
applications. This consortium could be a model for the 
consortium in Mr. Flores' bill.
    Has your office discussed how the Isotope Consortium could 
apply to an advanced fuel program?
    Mr. McGinnis. Thank you very much. Isotope production is 
very important. There are certainly applications for advanced 
reactor technologies. But with regards to the lead for isotope 
production, that is both within the Office of Science and also 
NNSA. So if you don't mind, respectfully I may ask Dr. Park. I 
don't know if you have any refer--anything you want to say on 
the isotope production.
    Dr. Park. If it is appropriate we will get back to you 
because it involves yet another member within the DOE family, 
and they do more of that work. And isotope production that we 
are responsible for is really just purifications for medical 
isotopes or in R&D.
    Mr. Bucshon. Yes, if you can get a response back to the 
committee, that would be great. I would appreciate it.
    I yield the balance of my time to Mr. Shimkus.
    Mr. Shimkus. I thank my colleague.
    I just wanted to follow up on Adam Kinzinger's comments 
about the international aspect of this. I deal a lot with the 
Baltic countries, Eastern European issues, so I focus a lot on 
the Astravets plant being constructed on the border between 
Lithuania and Belarus. And I just want to highlight a couple 
issues on this.
    The International Atomic Energy Commission recommended a 
six-step process to review building of nuclear power plants to 
prevent disasters like Chernobyl and also, recently, Fukushima. 
Belarus has chosen to skip four of the six steps. That already 
identifies a concern.
    When asked why they want to build this plant, the President 
of Belarus said, ``This is a,'' and I quote, ``a fishbone in 
the throat of the European Union and the Baltic States.'' So it 
is not a power plant being constructed for energy security, 
energy efficiency, it is really economic warfare against 
Eastern European countries.
    Nuclear power plants in sensitive areas should be discussed 
within the Espoo Convention, which this is not. Nearly all of 
Lithuania is 300 kilometers of the plant, which means that if a 
disaster were to strike, long-term food consumption in the 
country could be affected, the drinking water could be 
affected.
    But there is also concerns, again highlighting what Adam 
was trying to raise on the national security aspects of this. 
Incidents occurring and cast on Belarus' commitment to working 
with neighbors and ensuring the plant's safety. In 2016, six 
serious incidents occurred, and Belarus has failed to be up 
front with Lithuania about any of them. A 330-ton nuclear 
reactor shell was allegedly dropped from about 13 feet. This 
was two summers ago now, not last summer. Belarus did not 
reveal anything about the incident until independent media 
reported it, and then downplayed it.
    Earlier, a structural frame at the site collapsed after 
workers, apparently under time pressure, filled it too quickly.
    So, and this is all based upon a statement in the record I 
did for the Congressional Record on the floor just raising this 
issue. So the international concern, state-sponsored actors 
versus competitive marketplace do bring a point of needed 
discussion to this debate. So I appreciate that. I just wanted 
to be additive to what Congressman Kinzinger has stated.
    With that, I want to thank my colleague from Indiana and 
yield back to him.
    Mr. Bucshon. Yes, I yield back, Mr. Chairman.
    Mr. Johnson [presiding]. The gentleman yields back.
    We now recognize the gentlewoman from Florida, Ms. Castor.
    Ms. Castor. Thank you very much. And thank you, Dr. Park 
and Mr. McGinnis, for being here today.
    I am very passionate about the United States remaining a 
leader in technology and innovation, especially in nuclear 
energy. I believe the commercialization of nuclear technology 
can be positive in that expanding and exporting this technology 
can be beneficial to businesses here on our economy and on 
international security.
    But I have concerns about the discussion draft that makes 
changes to DOE's Part 810 process. I believe the Secretary of 
Energy should have more discretion when reviewing 
authorization. But I question whether or not the legislation as 
drafted is as precise as it should be, actually providing a 
firm definition of low proliferation risk.
    And then I am also concerned that the application time line 
for low proliferation risk reactor technology will be untenable 
in the long run.
    Dr. Park, can you share with us how DOE currently defines 
low proliferation risk?
    Dr. Park. So with the--because of the many different 
parameters in reviewing the applications, for example, again 
the biggest factor is the recipient country risk. It is not a 
simple formula that actually would work for us. So only as they 
fit in the certain categories, for example, as I stated 
earlier, if we already have established a relationship through 
123 agreements we can go through a 5-week expedited process. It 
is not a big deal. We actually have done that before.
    But, again, if you don't belong in that category it becomes 
much more difficult. We need to actually work with them so they 
know what we are looking for and they can provide responses 
that we need to have to make sure that our technologies aren't 
shared in a manner that is not appropriate.
    So I do appreciate the fact that we need to find a way to 
expedite the processes. Again, we are somewhat limited in what 
we can do in terms of whether they already have an agreement 
with us or not. So, to that extent I would like to look for 
ways to work in these countries as best as we can so we can 
minimize, we can actually manage the risks in sharing U.S. 
technologies with these countries.
    I do apologize for giving you a roundabout answer, but it 
really depends on who the host countries are.
    Ms. Castor. Mr. McGinnis, do you have a comment on that?
    Mr. McGinnis. Just to say, obviously the Office of Nuclear 
Energy, its mission, the U.S. nuclear industry greatly relies 
upon this very important Part 810 process, as well as the two 
other export control authorities at the Department of Commerce 
and also NRC, as well as the 123. So this is a process, I 
think, that we are all collectively always trying to improve.
    Ms. Castor. Maybe you can rally those folks to look at 
that, that portion of and definition.
    Mr. McGinnis. Yes.
    Ms. Castor. That would be helpful.
    Mr. McGinnis. Will do.
    Ms. Castor. Dr. Park, do you foresee any challenges with 
the draft legislation that could hinder the U.S. as a producer 
of commercialized nuclear technology?
    Dr. Park. I don't see any showstoppers. If I can give you 
that as a response. The fact that the committee is very 
involved with us and asking our technical assistance and 
interpretations, we welcome it. We look forward to continue the 
relationship. I think it is a positive step where we see many 
positive signs.
    Ms. Castor. How about national security risk? I know you 
can't go into detail, great detail there, but are there any 
national security risks that could develop as a result of the 
changes made in the discussion draft?
    Dr. Park. There are always possibilities and potentials. 
And I think we are comfortable, we are confident that we can 
actually mitigate some of those risks along the way. And again, 
the minimizing and managing risks is what we do on NNSA's side. 
And so far I think that we have a pretty good handle on how to 
move forward with this whole situation and as far as the 
process of technology sharing and so on and so forth.
    But again, there are some things that just take time. And 
we appreciate your patience on it.
    Ms. Castor. Sometimes time is important when we are talking 
about national security. But I, I believe that the U.S. has to 
remain the leader in nuclear technology. And as I mentioned 
before, there are many benefits associated with reforming Part 
810, but there could also be unintended consequences. And 
that's what we need to focus on.
    I want to ensure, I want to ensure that we are proactive 
and efficient, as you said, when it comes to the 
commercialization of the nuclear technology. But we are 
counting on you and the experts out there to help poke and prod 
at this piece of legislation to make sure there are not 
unintended consequences.
    Dr. Park. We will. And we will work with you.
    Ms. Castor. Thank you. And I yield back.
    Mr. Johnson. The gentlewoman yields back. The Chair now 
recognizes himself for 5 minutes.
    Dr. Park, I understand that for many years the Department 
allowed the Secretary to delegate signature authority on Part 
810 authorizations. And it was only recently that DOE's general 
counsel revised its previous interpretation to disallow this 
delegation.
    Section 3 of my discussion draft simply clarifies in the 
Atomic Energy Act that the previous process was acceptable. So 
do you know if there were any delegations to your knowledge 
that involved unacceptable proliferation risk or created an 
unacceptable lack of visibility by the Secretary's office over 
the proposed exports?
    Dr. Park. So, my understanding is that there was not a 
delegation because of interpretation of the law, the way our 
general counsel read the law. And it is not because of lack of 
the appreciation for our technical staff.
    But again, we actually welcome this opportunity to delegate 
some of these ``routine'' things, although there is nothing 
routine about sharing nuclear technologies. But again, we 
appreciate it.
    Mr. Johnson. But I mean back when they were, because it was 
previously delegation was allowed. So when delegation was 
allowed are you aware of any delegations that, that involved 
any unacceptable proliferation risks?
    Dr. Park. I don't think there was any delegation in the 
past. That's my understanding.
    I am more than happy to correct myself after this hearing 
and get back to you.
    Mr. Johnson. OK. Well, based on your understanding of the 
decision, was the legal interpretation made in any way because 
staff weren't qualified or able to appropriately consider the 
impacts of the specific application?
    Dr. Park. Not at all. I think there is the highest 
confidence from the beginning of all the secretaries we have 
had on the technical qualifications and their judgment. It is a 
matter of how one read the law, and it is as simple as that.
    Mr. Johnson. Back to that first question. Would you, would 
you go back and take a look at that? Would you look and see if 
there were any delegations? Because it was my understanding 
that we used to do it that way and that there were. So I would 
like to clear that one up.
    Dr. Park. We will get back to you.
    Mr. Johnson. OK, thank you.
    Based on NNSA's review of the process, would enactment of 
this bill to revert to the previous delegation process have the 
practical effect of shortening the review process with minimal 
proliferation risk? Do you think it is a smart thing to do?
    Dr. Park. One-word answer: Yes. And obviously, as a 
physicist I will give you a 10-minute answer which you don't 
need right now. But, again, I think there are enough good 
qualities in the proposed legislation, and we will work with 
you. I think this is a positive sign. So, there are many things 
that we know how to fix. And this legislation will certainly 
help us to achieve that goal.
    Mr. Johnson. OK. All right.
    Dr. Park, continuing on, could reverting to the pre-2005 
process by which DOE can review an authorization in a 
concurrent process as the State Department's required process, 
would that help reduce the overall time frame, approval time 
frame?
    Dr. Park. Yes. The biggest challenge, again, is waiting for 
our partner countries to provide assurances. And there is just 
no simple way to get the answers.
    At the same time, one of the things that we have been doing 
is that we actually give ``credit'' for these countries having 
123 agreements with us. So there are some exceptions that allow 
us to accelerate the sharing the technologies. But, again, 
there are just a few dozen countries that we have a 
relationship with.
    Mr. Johnson. OK. All right. And would this change to the 
approvable process in any way reduce information that is 
reviewed, weaken the rigor of such reviews, or alter the 
various agencies that concur, or consult on the authorization 
in a manner that could undermine our national security 
interests?
    Dr. Park. So when I look at the positive side of this 
legislation it might actually help us because, for example, 
this online system would allow all the reviewers to actually 
look at each others' comments, for example, in real time. So I 
see potential positive changes that this system, this 
legislation will produce. But, also, we will look for 
unintended consequences along the way. You don't want to hurry 
up too fast, too much on some of the review processes.
    But, again, there are enough positive signs that we are 
really embracing this legislation.
    Mr. Johnson. OK. All right. Well, I will yield back my 
total of 21 seconds. And with that I think we have no 
colleagues on the left that want to ask questions.
    Mr. Flores, you are recognized for 5 minutes.
    Mr. Flores. Well, thank you, Mr. Chairman. I want to thank 
the witnesses also for joining us today. This is an important 
discussion. Nuclear power is the ultimate admissions-free, 
green-power source, particularly when it comes to the 
generation of baseload electricity. And so it is important for 
our country moving forward, not only for economic opportunity, 
national security, and also for the environment.
    Earlier this year I asked both Under Secretary Menezes and 
you, Mr. McGinnis, about collaborating to develop a policy to 
provide high-assay LEU. NNSA officials also testified at both 
of these hearings. Thus far DOE and NNSA's input in this 
discussion draft has been limited.
    Dr. Park's testimony notes that there are efforts underway 
relating to high-assay LEU, and I hope to increase our 
collaboration as we work towards formally introducing this 
legislation.
    Let's turn to a few questions. One provision in my 
discussion draft relates to the need to develop what is known 
as criticality benchmark data. This data is important to 
develop the underlying information to establish the necessary 
safe regulatory framework for the provision of nuclear fuels. 
Mr. McGinnis, can you succinctly describe the nature of this 
criticality information, why it is necessary, and what 
Government or non-Government facilities will be able to gather 
this type of data?
    Mr. McGinnis. Thank you very much. The benchmarking data is 
very important for a number of reasons, including 
transportation and packaging. This, in part, is because the 
criticality issues where you have a higher level of enrichment, 
and so whether it is needing new NRC licensed transportation 
systems to be able to transport in the U.S. enriched fuel above 
5 percent, much of the fuel that is anticipated to be needed 
will be as high as 17, 18, or 19 percent.
    Mr. Flores. Right.
    Mr. McGinnis. So the configuration, the way the materials 
is packaged. But a lot of this also is driven by what we are 
waiting on. And that is waiting to get a better sense, even 
though we want to get as much data as possible, who are the 
first movers? And what are the types of reactors--are we 
talking metal or are we talking oxide fuel? And different 
reactors designs have different types of fuels.
    Then there are other options for transportation as well, 
including in gas form.
    Mr. Flores. Can we move to the next part of the question, 
that is, what Government or non-Government facilities are 
available to gather this type of data?
    Mr. McGinnis. Well, the Department of Energy--first of all 
let me, again, recognize that the front end enrichment capacity 
is addressed, is being addressed fairly well in the U.S., 
particular by--in particular by LES for the enrichment 
services. And I would say that the industry is poised to 
respond to additional needs, including high-assay LEU when they 
see the market coming and the customers coming in at a 
sufficient volume. So, in the meantime the Department of Energy 
does stand ready to make available its facilities to be able to 
do that data benchmarking, and other testing.
    We are doing some now. We are working with industry now in 
order to get as much of a clear understanding of what types of 
fuels are going to be needed when.
    Mr. Flores. OK. Dr. Park, you indicate in your testimony 
that you agree that advanced reactors will require HA-LEU. You 
note further that you will evaluate that need alongside the 
needs for our Nation's defense programs. The question is are 
these two programs on the same time frame or different time 
frames?
    According to your testimony there is ample fuel for weapons 
use available today. But it is unclear that there will be ample 
fuel for advanced civilian reactor use over the next 10 years. 
Is it appropriate to suggest that DOE's civilian nuclear 
program should focus on the near term commercial needs while 
your office can look at the longer term defense enrichment 
requirements?
    Dr. Park. So, as it turns out, even for the self-absorption 
program tritium production requirement that we need to start 
the work today because of the long lead time it takes to get 
the production up and running. So time is appropriate for us to 
collect the requirements from industry partners.
    It doesn't necessarily mean we will incorporate the 
commercial sectors we find through our DOE. Our commitment is 
to review all possibilities and make sure we stretch every 
dollar that we have to produce the enriched uranium. But, 
again, at the earliest moment we can collect and incorporate 
the requirements we will have a better idea as to what actions 
are available. If indeed we start with the enriched uranium 
enrichment then later it will stretch out into much longer and 
that will give us more options in terms of entertaining 
possibilities of supporting commercial sectors.
    So it really depends on the requirements within----
    Mr. Flores. It is possible our bill could help you in terms 
of our Nation's defense needs, as well as taking care of HA-LEU 
for advanced, for the advanced sector.
    OK, we have run out of time. I will submit additional 
questions for the record. I appreciate those responses.
    Thank you. I yield back.
    Mr. Johnson. The gentleman yields back. And I want to, 
seeing that there are--I am sorry, I didn't see Mr. Griffith 
walk in. Mr. Griffith is recognized for 5 minutes.
    Mr. Griffith. Thank you very much.
    Mr. McGinnis, nearly a year ago President Trump announced 
the administration was going to conduct a complete review of 
the Nation's civil nuclear policy. Following your appearance 
before this committee in early February you were asked to 
provide information for the record regarding this ongoing 
review. Nearly three months after those questions were 
submitted to you, we have not yet received a response from you 
or your team.
    So, I would like to ask a few questions about this ongoing 
civil nuclear review, and I would request that you please 
answer yes or no so we have time to get to all of them.
    As a principal on the National Security Council is the 
Secretary of Energy providing direct input into this ongoing 
review? Yes or no?
    Mr. McGinnis. Yes.
    Mr. Griffith. Are you aware if the review is engaging with 
other governmental agencies such as the Department of Commerce 
and the Department of State?
    Mr. McGinnis. Yes.
    Mr. Griffith. Are you aware if this review is receiving 
input from non-Government stakeholders?
    Mr. McGinnis. I cannot say yes or no on that one. I do not 
know.
    Mr. Griffith. OK, thank you.
    Are you aware if the review intends to seek input from 
Congress to inform the review?
    Mr. McGinnis. Again, I can't speak for the White House on 
whether they, when they plan, if they plan to give input.
    Mr. Griffith. But input's a good thing from Congress, 
wouldn't you agree? Yes or no?
    Mr. McGinnis. It's a good thing.
    Mr. Griffith. All right. To the best of your understanding, 
and obviously this can't be yes or no, to the best of your 
understanding when do you expect the review to be completed?
    Mr. McGinnis. I do not know the answer to that, other than 
the fact that I can tell you that we have attended quite a few 
meetings, very substantive. We have made significant progress.
    And I can also say that our charge at the Department was 
not to wait for any completion to be able to do things that we 
can do now, whether it is loan guarantees, whether it is notice 
of proposed rulemaking, whether it is industry quotas or 
supporting the revitalization.
    Mr. Griffith. And I appreciate that. And I hope included in 
that would be recommendations that you need legislative 
support. And that was the last of my series of questions as to 
the best of your understanding where the review makes specific 
legislative recommendations for Congress to consider. And I 
would hope that even if it is not finished, if you find one let 
us know, because we cannot operate on those suggestions if you 
don't give them to us.
    Mr. McGinnis. And, respectfully, I would like to apologize 
for not getting those answers to you. I am fully aware of them. 
I have been part of that process giving the answers. But, 
unfortunately, it is taking longer than we had hoped for to get 
them back to you. We will get them back to you.
    Mr. Griffith. Well, I appreciate that. I am glad we were 
able to clear this up a little bit today.
    As this morning's hearing clearly indicates, as well as the 
dozens of other Energy and Commerce Committee hearings in this 
Congress there is a strong bipartisan support to address key 
challenges confronting our Nation's nuclear sector. And I hope 
the administration will commit to working with us as we go 
forward.
    Mr. McGinnis. Absolutely.
    Mr. Griffith. Thank you very much. And I yield back.
    Mr. Johnson. The gentleman yields back.
    We are now pleased to recognize the gentleman from North 
Carolina, Mr. Hudson, for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman. I want to first thank 
Chairman Upton and Ranking Member Rush for holding this very 
important hearing. Thank both our witnesses for being here and 
taking so much time with us.
    A number of studies have identified the potential benefits 
of applying advanced nuclear reactor designs to fill specific 
national security needs. Mr. McGinnis, you have talked a lot 
about the microreactors and sort of what you see in the future. 
I represent Fort Bragg, the largest military base in America. 
This is an issue that I am very interested in.
    I believe it is critical that we have your input on how we 
can improve the safety and security of our soldiers in the 
field on military installations, as well as critical DOE sites 
around the country. Mr. McGinnis, I asked for information 
regarding ongoing DOE and Department of Defense discussions on 
this topic back in February after a subcommittee hearing. And I 
am disappointed that I haven't gotten any response. I really 
wanted to get some of this feedback as we were developing my 
discussion draft.
    I hope you will carry this message back to the Department's 
senior leadership that this committee expects more timely and 
coordinated response in advance on our agenda because, again, 
we value your input and think it will improve the process.
    Mr. McGinnis. Again I apologize. But I would like to 
reinforce the importance of microreactors as a key aspect 
potentially for resiliency and also, of course, security, 
establishing a secure energy supply chain by having indigenous 
generation on site. So there is tremendous potential value to 
having a microreactor potentially on site supplying power for a 
base or other Federal or non-Federal facility.
    Mr. Hudson. I appreciate that.
    And I want to thank Mr. Peters for working with me on the 
discussion draft. Our discussion draft asks a number of 
questions to help identify key components of how a pilot 
program might be developed. Briefly, Mr. McGinnis, are the 
topics in this bipartisan bill the right questions to ask for 
Congress to make a fully informed decision on the framework of 
this pilot program?
    Mr. McGinnis. Yes, indeed. In fact, I have been meaning to 
say how timely and how appropriate and, frankly, how important 
the issues that have been addressed, are addressed in these 
four pieces of legislation, are incredibly important. We are in 
a key moment in time to revitalize, and the support as we are 
seeing in this legislation, the issues that are going to be 
vital if we are to succeed.
    Mr. Hudson. Thank you for that.
    Are there any additional issues that we should be aware of 
relative to, particularly, my discussion draft?
    Mr. McGinnis. Just to say, again, we are in a key moment in 
time. Industry needs all the help we can give them in the 
appropriate way to get back on a revitalized footing to be able 
to not only supply resilient power in the United States but to 
be globally very, very competitive. Thank you.
    Mr. Hudson. I appreciate that.
    Dr. Park, Congressman Johnson's discussion draft includes a 
section that creates an expedited process or procedures for low 
proliferation risk technologies. Will you please describe how 
you envision the development and implementation of that 
process?
    Dr. Park. As we have been building up the cases where we 
were able to, we are able to transfer technologies we would 
like to be able to copy that over as much as possible. But, 
again, there are challenges related to who the host countries 
are. So we still need to juggle both ends to make sure we 
actually provide safeguard assurances at the same time we do 
expedited process and approval. So it's a balancing act.
    Mr. Hudson. Appreciate that.
    Like the other sections of this discussion draft, these 
procedures will help enable our domestic suppliers to more 
effectively compete in the world market, as has been mentioned 
by my colleagues, while not impacting our national security 
interests, and allowing NNSA to focus on the applications that 
truly present national security risks. Do you believe this 
section will have that intended effect? Do you think we strike 
the right balance?
    Dr. Park. I think it is on the right path.
    Mr. Hudson. Great. I appreciate that. And with that, Mr. 
Chairman, I yield back.
    Mr. Johnson. The gentleman yields back.
    And now seeing that there are no further Members wishing to 
ask questions I would like to thank our panelists, our 
witnesses for joining us here today. You are excused.
    We will call up our second panel, if they would take their 
seats. These include Jeffrey S. Merrifield, partner at 
Pillsbury Winthrop Shaw Pittman; and Melissa Mann, president of 
URENCO; Nick Irvin, Director, Research and Development for 
Strategy in Advanced Nuclear Technology, Southern Company; and 
Edwin Lyman, Senior Scientist, Global Security Program, Union 
of Concerned Scientists.
    And as soon as our second panel takes their seat, just for 
Members' understanding and information, we will get through as 
many of these introductory or the witness testimonies as 
possible before we have to break for an anticipated vote 
sometime in the next 10, 15 minutes or so.
    So, with that, Mr. Merrifield, would recognize you for 5 
minutes.

    STATEMENTS OF JEFFREY S. MERRIFIELD, PARTNER, PILLSBURY 
   WINTHROP SHAW PITTMAN LLP, AND SENIOR ADVISOR, CLEARPATH 
   ACTION; MELISSA C. MANN, PRESIDENT, URENCO USA, INC., AND 
MEMBER, UNITED STATES NUCLEAR INDUSTRY COUNCIL; JAMES NICHOLAS 
 IRVIN, DIRECTOR, RESEARCH AND DEVELOPMENT, STRATEGY, ADVANCED 
  NUCLEAR, AND CROSSCUTTING TECHNOLOGY, SOUTHERN COMPANY, AND 
    MEMBER, ADVANCED REACTOR WORKING GROUP, NUCLEAR ENERGY 
  INSTITUTE; AND EDWIN LYMAN, PH.D., SENIOR SCIENTIST, GLOBAL 
        SECURITY PROGRAM, UNION OF CONCERNED SCIENTISTS

               STATEMENT OF JEFFREY S. MERRIFIELD

    Mr. Merrifield. Thank you. Chairman, Ranking Member Rush, 
and members of the subcommittee, it is a pleasure to testify 
before a committee that I had the opportunity to be in front of 
when I was an NRC Commissioner. I am here today as a senior 
advisor to ClearPath Action, although I am a full-time partner 
in Pillsbury Law.
    Founded by businessman Jay Faison, ClearPath Action's 
mission is to accelerate conservative clean energy solutions. 
To advance the mission, ClearPath Action develops cutting-edge 
policy and messaging and works with policymakers and industry.
    During my time at the NRC and in positions I have held 
since then, I have had the opportunity to visit all 99 nuclear 
power plants in the United States, and over half of the 450 
nuclear power plants around the world. I have been impressed by 
the commitment to excellence in nuclear power operations that I 
have seen at all the plants I have visited.
    I would first like to turn to the matter of advanced 
nuclear reactors. These designs, which utilize high temperature 
gas, molten salt, and liquid metal, among other designs, range 
from microreactors of a few megawatts to large gigawatt-size 
reactors. While they represent a diversity of sizes and cooling 
methods, they generally possess enhanced safety features as 
well as improved economics when compared to existing reactors.
    In a report issued by ClearPath in the Nuclear Industry 
Council in February, Pillsbury identified that of the over 50 
advanced reactor designs in North America the vast majority of 
these are planning to use higher enrichments of fuel, typically 
between 8 and 19.75 percent. And some of these designs could 
come to the U.S. market by the mid to late 2020s.
    As the development of a fuel supply and regulatory approval 
can take multiple years, work must begin immediately to ensure 
a sufficient supply of this high-assay low-enriched uranium. 
Unfortunately, the Department of Energy, which has been a 
traditional supplier of these enriched levels of material, does 
not currently possess the high-assay enriched uranium or 
enrichment capabilities that are needed for advanced reactors 
as the current inventory is dedicated to other needs such as 
research reactors and the Navy propulsion program.
    The draft legislation sponsored by Representative Flores is 
a positive step in the right direction to address the need for 
DOE to create an inventory of HA-LEU material, the need for 
criticality information to develop and license transportation 
packages, and the need for the NRC to develop an appropriate 
and timely licensing framework.
    In addition to strongly supporting this legislation, 
ClearPath Action's written comments provide specific 
suggestions for improving this legislation.
    We also support the draft legislation offered by 
Congressman Wilson to require the DOE to prepare a report on 
the potential deployment of privately developed microreactors 
at DoD and DOE facilities. ClearPath's written testimony also 
includes a recommendation for strengthening this legislation.
    The NRC has continued to make commendable progress in 
rightsizing its workforce and budget. ClearPath Action believes 
the Commission can and should take further steps to streamline 
its services consistent with the mission to protect public 
health, safety, and the environment.
    The legislation sponsored by Congressman Kinzinger and 
Congressman Doyle appears to be a common sense step to provide 
the agency with a funding mechanism that aligns its mission and 
costs. We applaud the provision that excludes fees for the 
development of the regulatory infrastructure for advanced 
reactor technologies. We believe this exclusion will allow the 
NRC to be appropriately prepared to review these technologies, 
yet avoid placing the cost burden for these preparations on the 
nascent developers of these promising designs.
    As it relates to the provision in the bill to require a 
study about the elimination of the Foreign Licensing 
Restrictions of Section 103(d) and 104(d) of the Atomic Energy 
Act, while I would prefer the outright elimination of the 
ownership requirement, I understand the rationale for 
commissioning a study and support it.
    Recently, the U.S. has had several perfectly good nuclear 
reactors shut down for economic reasons. Previously, Pillsbury 
was previously approached by several European utilities who 
were interested in purchasing U.S. nuclear reactors but were 
prohibited from doing so. Eliminating this requirement could 
provide an opportunity to save these vital clean energy 
facilities through investment by friendly foreign utilities.
    I would note that in 2008, British Energy's nuclear fleet 
faced similar financial hardships, and a decision to permit EDF 
to purchase these units allowed the continued operation of 
these clean UK energy assets.
    We have reviewed the draft submitted by Congressman Johnson 
to facilitate the process by which DOE authorizes export of 
civilian nuclear technologies. We believe this legis--we 
support this legislation and believe it makes an important step 
to further streamline the process for some applications 
submitted under 10 C.F.R. Part 50.10. That said, we remain 
concerned that the legislation only targets a limited portion 
of the nuclear technology export approvals process. We have 
submitted some specific suggestions for improvement in our 
written testimony.
    Thank you. And we thank you for allowing me to testify on 
this important topic.
    [The prepared statement of Mr. Merrifield follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Johnson. Thank you, Mr. Merrifield.
    Ms. Mann, you are now recognized for 5 minutes.

                  STATEMENT OF MELISSA C. MANN

    Ms. Mann. Thank you, Mr. Chairman, Ranking Member Rush, and 
members of the subcommittee. We appreciate your leadership on 
nuclear energy issues. And it is a privilege to speak with you 
today about means of increasing the competitiveness of the 
nuclear fleet and advancing advanced technologies and 
infrastructure.
    I am Melissa Mann, president of URENCO USA and the owner of 
the only operating uranium enrichment facility in the United 
States. But I am also here today as a member of the U.S. 
Nuclear Industry Council, whose 82 members represent the full 
breadth of the nuclear supply chain.
    On behalf of the Council we salute the full committee and 
this subcommittee's laser focus on sustaining the current fleet 
and pushing forward advanced technologies. And we salute the 
multifaceted initiatives that are covered by the four bills 
under discussion today. I would like to focus specifically on 
Mr. Flores' discussion draft on what we now know we call HA-
LEU, or high-assay low-enriched uranium.
    The current nuclear fleet relies on a uranium fuel enriched 
to just under 5 percent in the uranium-235 isotope. And we have 
a fuel cycle that is able to process that material. But a 
comparable fuel cycle does not exist for many advanced designs 
because they require higher enrichment at levels above 5 but 
just below 20 percent.
    There is a broad community of users who would benefit from 
HA-LEU supply. They include research and test reactors, 
including those currently fueled by the Department of Energy, 
both here and abroad.
    It includes many advanced reactor designs and advanced 
fuels, including accident tolerant fuels.
    It includes producers of targets for medical isotope 
production, and even existing light-water reactors who are 
seeking certain fuel reliability and cost performance 
enhancers.
    A complete and sustainable HA-LEU fuel cycle would 
necessarily include three components: an enrichment facility; a 
conversion facility to take that material to the form of metal 
or oxide; and one or more fabrication facilities to manufacture 
the full type of fuel forms required.
    And there is a strong potential to develop the HA-LEU fuel 
cycle in the United States. The New Mexico enrichment plant, 
the technology that it uses is already capable of producing at 
the full gamut of HA-LEU enrichments. And only an NRC license 
amendment is required to bring that capacity to bear.
    Two fabrication facilities supporting NNSA missions already 
operate at much higher enrichment levels, demonstrating both 
the viability of licensing and operating at these greater 
enrichments.
    There is several, three in particular, critical fleet 
conditions that need to be met before we can move forward:
    First, it is imperative that you license and develop the 
enrichment, conversion, and fabrication capabilities 
concurrently, otherwise you will have critical gaps.
    Secondly, we need a predictable and streamlined licensing 
framework, and the regulator needs the appropriate resources to 
manage timely and contemporaneous reviews.
    And we have talked a little bit about nuclear criticality 
benchmarks. We need those both for the fixed facilities and for 
transportation packages. We are also seeking clear NRC guidance 
on physical protection, security, and material control and 
accountability.
    And, finally, those companies that are making investments 
in HA-LEU facilities need to be assured of a reasonable return 
on investment. A consortium-based approach in cooperation with 
DOE, as envisioned by this discussion draft, is a good step in 
that direction.
    I am speaking about these recommendations not just as a 
member of the fuel cycle. My company is also a designer of a 
small microreactor, 10-megawatt, thermal, high-temperature, 
gas-cooled design that itself relies on HA-LEU. What we know is 
that without fuel, reactors don't run. And that is perhaps the 
most significant aspect of the discussion draft, that it 
recognizes the need for collaboration, because unless the users 
of this material, the fuel cycle itself, the Department, and 
the NRC effectively hold hands and jump forward together, we 
won't be able to reap the benefit of these designs.
    Thank you.
    [The prepared statement of Ms. Mann follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Johnson. Ms. Mann yields back. Mr. Irvin, you are now 
recognized for 5 minutes. And if I could remind our witnesses 
votes have just been called. We are going to get through both 
of your testimonies. Don't want to cut you short but we will 
not hold it against you if you speak fast.

               STATEMENT OF JAMES NICHOLAS IRVIN

    Mr. Irvin. Shouldn't be a problem as I am from Alabama, 
sir. We speak pretty fast in the south.
    Thank you for the opportunity, Mr. Chairman, thank you, 
Member Rush, to appear before you about this very important 
topic of advanced nuclear technology. My name is Nick Irvin. I 
am the Director of R&D at Southern Company. And I have 
responsibility for developing advanced reactor technology, as 
well as supporting our efforts to modernize the licensing 
framework for those technologies.
    At Southern Company we talk a lot about providing our 
customers with clean, safe, reliable, and affordable energy. 
And for me personally that is a very important concept in that 
I believe that access to energy is foundational to maintaining 
a high quality of life for every human on this planet.
    In addition, I was raised in a home where continuous 
learning is--was a requirement, and not only to be a continuous 
learner but to also put that learning to good use. And so, to 
work at a company like Southern Company that provides energy 
but also provides a strong focus on innovation makes me one of 
the lucky ones.
    When it comes to innovation, a very important component of 
innovation is collaboration. And a very important collaboration 
that we have maintained for the entirety of our history in R&D 
is a strong relationship with the Department of Energy through 
public/private partnerships. We believe public/private 
partnerships are essential to help manage the transition of new 
technology, particularly in the energy space, from concept to 
deployment and where the technology and financial risks become 
married in that process.
    To that end, we currently operate as a contractor to the 
Department of Energy, developing an advanced reactor in 
collaboration with a company called TerraPower where we are in 
year two, approaching year three, of a 5-year agreement to 
advance that technology towards deployment in the mid-2030s. We 
believe it is an important technology that has a potential to 
not only advance the components of the advanced reactors that 
we think about, nominally safety, baseload electricity, but 
also do so in a very cost competitive way, which is important, 
again, to protect the interests of our customers.
    Additionally, we are working in partnership with the 
Department of Energy on a project called a licensing 
modernization project. It is an effort to reflect the 
differences in the nature of these advanced reactors and how 
the regulatory approach needs to be modified so that we can be 
efficient and effective in regulating those to the same 
standards as we currently regulate the light-water reactor 
fleet.
    As we look at the four bills that were presented from the 
subcommittee, we feel like they are all very supportive and 
aligned with our mission goals and our activities at Southern 
Company. Specifically, this idea of an efficient and effective 
regulator is a critically important component to maintaining 
the competitiveness of nuclear reactor technology in the 
nuclear industry, both domestically and globally. We do see 
nuclear energy as a global market. And as a consumer of nuclear 
technology, we see the vital importance of having a healthy 
supply chain in order to maintain access to those, those 
components and technologies here domestically.
    And given that the market domestically is challenged, the 
international markets may maintain that foundation from which 
we need to build advanced reactors.
    Given the prior comment about a global market, we can't 
miss the opportunity to take advantage of near-term 
opportunities such as the ones identified in the bill 
discussing microreactors as it relates to resiliency with the 
Department of Defense. We think these microreactors can be 
deployed in the near term, and do provide a great opportunity 
to, for lack of a better term, pilot the entire, the entire 
concepts necessary to deploy advanced reactors in a very 
measurable way, given their size and scale.
    And then as was previously mentioned, none of these 
machines operate without fuel. And so, access to HA-LEU is a 
critically important component that I do believe it is time to 
begin working towards if we want to support early or mid-next 
decade either deployment of microreactors, or demonstration 
reactors, or some other technologies.
    Again, I appreciate the opportunity to provide comments and 
look forward to your questions.
    [The prepared statement of Mr. Irvin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Johnson. Thank you, Mr. Irvin.
    Dr. Lyman, you are now recognized for 5 minutes.

                    STATEMENT OF EDWIN LYMAN

    Dr. Lyman. Thank you. On behalf of the Union of Concerned 
Scientists I would like to thank the chairman, ranking member, 
and other members of the committee for the opportunity to 
testify today.
    UCS supports DOE investment in nuclear energy research and 
development, but with a focus on increasing safety and security 
of the once-through cycle.
    In the near term we see promise in projects such as 
developing accident tolerant fuels for current light-water 
reactors. But our analysis to date has not identified any 
advanced reactor design that offers clear safety and security 
improvements over today's light-water reactors.
    So, it is in that spirit that I would like to comment on 
the four bills today.
    We support the discussion draft on advanced nuclear fuel 
availability. We think it makes sense for an assessment to be 
made of the availability or the likely availability of HA-LEU. 
And that will help to assess the viability of advanced reactor 
declining in mid-term. But the acquisition of HA-LEU should be 
closely tied to realistic projections of the need for the 
material.
    A couple of additions. We think that the study shouldn't 
evaluate the larger nonproliferation implications of the 
production of HA-LEU. Even though HA-LEU is low-enriched 
uranium and cannot be directly used in nuclear weapons, the 
material does pose proliferation security concerns and if there 
is going to be expanded production and use of that material, as 
well as the potential for exports of reactors that would use 
it, and foreign customers, we think that that is not--that 
evaluation has not been made yet, and it should be.
    On H.R. 1320, we oppose most aspects of the bill because we 
do not support so-called streamlining of licensing that might 
lead to shortcuts in the approval of advanced reactors without 
fully resolving the safety and security concerns that are 
unique to these new designs.
    On the nuclear energy competitiveness discussion draft we 
share a lot of the concerns that we have heard today about the 
definition of lost proliferation risk technology, and how that 
must be evaluated within the context of any export, especially 
today.
    And I would just like to clarify the record. My testimony 
did not say that it is easy for a country to misuse a light-
water reactor to produce plutonium for weapons, however, it is 
not out of the question. In fact, the technology for processing 
has been available now publicly for many decades. So you can't 
discount that. And you need to consider the risk of breakout--
that is, throwing the IAEA inspectors out and using the 
facilities you have to make weapons rapidly--in any export 
consideration.
    Finally, on the issue of microreactors, we do not share the 
optimism about the promise of these facilities, especially for 
Department of Defense sites and energy resilience. We think 
that the military should cast a skeptical eye on the stories 
that they are being told about how these reactors are going to 
be so safe and secure they can't melt down, and especially how 
they can provide resilience. In fact, any nuclear reactor 
really requires electrical power to operate safely, and the 
only way these reactors could provide power and disconnect it 
from the grid is in what is called island mode, which is not 
well established in any designs.
    So, I would urge that the study include an assessment of 
the safety and security, and the potential applications for the 
safety of U.S. military personnel and usability of military 
facilities if there were a safety, or security, or sabotage 
incident that would lead to large-array large release.
    I hope these observations are useful. I welcome your 
questions. Thank you.
    [The prepared statement of Dr. Lyman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Johnson. Thank you, Dr. Lyman.
    The committee will now stand in recess until after votes. 
And we will reconvene and begin our rounds of questions. Thank 
you.
    [Recess.]
    Mr. Johnson. The hearing will come to order. And the Chair 
will now recognize himself for 5 minutes for questions.
    Mr. Merrifield, your testimony notes that the discussion 
draft's expedited process for low proliferation risk 
technologies could be improved. How can the legislation find 
the right balance between having a defined set of technologies 
that would clearly be directed under the new process while 
still providing flexibility going forward that future 
innovations are not limited?
    Mr. Merrifield. Well, I think, Mr. Chairman, there are a 
couple aspects that we would focus on. One is obviously how you 
define low proliferation technologies. And we, it is our view 
that defining that, those technologies, commercial nuclear 
reactors other than those which are designed to utilize mixed 
oxide fuel would be a common sense way of doing that.
    We have a, you know, obviously, very stringent process with 
the NNSA here in the United States, as well as IAEA, which 
looks very closely at countries that operate those, those 
reactors. That is a solid and common sense framework that 
provides I think an appropriate level of protection.
    As it relates to the U.S. Governmental process, I think one 
of the issues that really drags these things out right now is 
the interagency process. That, combined with the assurance 
processes is, as it is currently put in place, has really 
caused many U.S. companies which are exporting these 
technologies to really be put at disadvantage and they are 
having their applications really dragged out far longer than 
they need to be.
    So, simplifying that process for obtaining those assurances 
potentially by having more standardized form of assurances we 
think makes a whole lot of sense. At the end of the day if we 
make it too hard to export U.S. technologies, people will go 
elsewhere to countries that don't have those concerns.
    Mr. Johnson. All right. Well, thank you.
    Ms. Mann, the legislation that I am proposing to reform 
DOE's Part 810 review process is meant to provide the U.S. 
nuclear industry at least a level playing field in the global 
nuclear marketplace, as in some countries, the suppliers are 
primarily, if not exclusively, government-owned vendors.
    In your experience can you tell me how has, how has your 
experience been working with DOE on 810 applications? What have 
you experienced?
    Ms. Mann. Thank you. So because our, our activity involves 
uranium enrichment we are absolutely caught entirely by the 810 
system, and at the very highest level of the licensing 
restrictions for everything we do. You know, that process is 
not necessarily fun or painless, but we have found that the 
Department of Energy has been incredibly professional in 
working with us.
    Now, do those approvals take longer than they need to? In 
many cases they do. That is partly due to the problem we have 
been talking about, getting the foreign government assurances. 
But we see that many of the reforms that have been made to date 
with electronic licensing, increased transparency, and 
accountability have been incredibly helpful.
    But I do think that your draft makes some very useful 
recommendations: the delegation of authority, and looking at 
ways that you can improve what falls into the general license 
category, will definitely support American users.
    Mr. Johnson. OK. Well, what further needs to be done to 
ensure that regulatory requirements don't have a chilling 
impact on U.S. exports of nuclear technology and assistance to 
those countries requesting it?
    Ms. Mann. The balance between promotion and protection is 
always a tricky one. And as a company that does deal with very 
sensitive technology, that is the balance that we are always 
looking to have in place.
    I think that, again, the transparency and the 
accountability in the process go far towards supporting that 
process. The recommendation that Commissioner Merrifield is 
making about a more standardized form of assurance helps. And 
whatever you can do to get those time frames down.
    But I also note that the 810 system does something for the 
U.S. that we don't see our competitors having an advantage of, 
and that is the general license system. So, to the extent that 
we can improve that further, we will get better, you know, 
better gains.
    Mr. Johnson. OK.
    Mr. Merrifield. Mr. Chairman.
    Mr. Johnson. Did you want to comment?
    Mr. Merrifield. Well, I was just going to say one thing I 
forgot to mention in our suggestion is also the notion of 
reducing the number of agencies that need to concur. The DOE 
and NNSA are perfectly capable of doing the vast bulk of these. 
We ought to let them go ahead and do it and not necessarily 
need some of the others in the process.
    Mr. Johnson. OK. Nuclear power plants last a long time. And 
I would think U.S. engagement with those reactors around the 
world can help ensure many years of economic cooperation and 
peace. According to the EIA, almost 200 gigawatts of new 
nuclear energy capacity are projected to be added throughout 
the world by 2050. These plants are going to be built.
    Mr. Merrifield, in your testimony you mention that today 
the U.S. is but one of many highly competitive countries vying 
for a role in supporting the development of, development of 
operations of nuclear power plants overseas. Can you describe 
the type of competition U.S. suppliers face and the benefits of 
U.S. engagement in these opportunities around the world?
    Mr. Merrifield. Well, it is----
    Mr. Johnson. And I am already out of time. So if you can 
make it a quick answer I would appreciate it.
    Mr. Merrifield. Yes. It is very strong competition. You 
have got China and Russia, which are often very competitive 
technologies with a lot of financing behind them. You have 
Korea, which has a demonstrated technology which is going to 
deploy four units in the UAE, which is a very aggressive 
competitor. And France has been very successful in a variety of 
other countries.
    The U.S. has strong competition. We don't have the same 
economic tools behind us. We really do need all of the effort 
of the U.S. Government if we are to increase these U.S., these 
vital U.S. technologies.
    Mr. Johnson. Thank you. I yield----
    Mr. Merrifield. Oh, I was going to say these are 100-year 
relationships. That is what our competitors know and that is 
what we need to focus on.
    Mr. Johnson. The long term.
    I yield back the balance of my time, which I have none, and 
I recognize Mr. McNerney for 5 minutes.
    Mr. McNerney. Well, I thank the Chair. And I thank the 
witnesses. I apologize for missing your testimony. I was in 
another committee.
    I am going to start with Mr. Lyman. What are the costs 
associated with fabricating HA-LEU through downblending of 
excessive highly enriched uranium stocks as opposed to using 
conventional or alternative fabrication methods?
    Dr. Lyman. Well, I think until--it is hard to talk about 
the cost of the alternative until the scope of the program has 
been established, as well as what it would take not only to--
what it would take really to support Ms. Mann's effort to 
acquire a capability to reconfigure plants and license them for 
producing HA-LEU.
    So until that scope is recognized, there are a factors on 
the costs, so I couldn't say. But clearly if existing HA-LEU 
stocks are available, that downblending, depending on the 
quality of the source material, could be, you know, a 
competitive option I would think since----
    Mr. McNerney. Thank you. What about the nonproliferation 
comments, could you expand on that a little bit?
    Dr. Lyman. Yes. Well, in general HA-LEU, even though it is 
below the 20 percent enrichment threshold, it is only if you 
look at a material that is right below that threshold it only 
takes about one-tenth of the separated work to produce weapons 
grade uranium over 90 percent as it does for natural uranium.
    So, having a stock of that moderately enriched uranium does 
give a leg up to a nation that might want to start producing 
high-enriched uranium for weapons. And that is our point now, 
that is why Iran, there was so much concern about Iran 
stockpiling this material.
    In addition, that material could be used for radiological 
weapons which has been their study in the past.
    So it is important to examine those issues if you do 
develop a new demand and production capacity for this material, 
start exporting, other countries may be kind of interested in 
similar designs, want to start producing HA-LEU themselves. I 
think that warrants further exploration.
    Mr. McNerney. Thank you. Mr. Irvin, where does the Southern 
Company see small modular reactors fitting into their business 
model?
    Mr. Irvin. That is a good question and it is an interesting 
one. We view SMRs as being a critical component of the 
maintaining the supply chain as we go forward for advanced 
reactors. We are always looking at our customers' needs and 
evaluating what they are telling us with regards to their price 
and performance requirements.
    I believe that SMRs have a critical challenge with respect 
to being competitive against natural gas combined cycle in the 
U.S. That doesn't mean that that future is not bright. And 
certainly there is a significant opportunity for SMRs, but I do 
think it is challenged.
    We, we see advanced reactors as providing a potential to 
drive down the costs low enough to be competitive with the 
natural gas combined cycle. And so really the core component of 
SMR is providing a bridge to that future.
    Mr. McNerney. Good segue.
    Mr. Merrifield, how do you, how do we help jump start the 
industry without hampering the NRC's capability to do their 
job?
    Mr. Merrifield. Well, I think, I think, you know, a number 
of pieces of legislation that you have before you today would 
be, would be helpful. In terms of the NRC's process, I think 
the agency's made a lot of, a lot of progress on right-sizing 
itself. I think putting in specific deadlines for reviewing 
applications, reviewing environmental reviews, I think that is 
certainly appropriate and I certainly would support that.
    Overall, in the part of the advanced reactor community, I 
think having appropriate funding through other committees of 
Congress is going to be important to your technologies which 
have great promise. They are certainly deployable in the late 
2020s, and the U.S. is ahead in this technology. Certainly want 
to take advantage of that for export purposes.
    Mr. McNerney. So in honor of the sitting chairman, what 
about the nuclear waste issue? Do you see a resolution of that 
in the works or what are your feeling about that?
    Mr. Merrifield. Is that directed toward me?
    Mr. McNerney. Yes. Yes, sir.
    Mr. Merrifield. Well, I have a specific prohibition against 
lobbying Congress on Yucca Mountain related issues. So, with 
that caveat I think that there are common-sensical ways to 
address the material. There are several proposals for interim 
storage facilities, both in Texas and New Mexico, which provide 
I think common sense ways of dealing with this in the interim.
    At the end of the day, my personal view as an American is 
Yucca Mountain is a perfectly safe place to put that fuel.
    Mr. McNerney. Thank you. Mr. Chairman, I yield back.
    Mr. Shimkus [presiding]. Thank you. The gentleman yields 
back his time.
    It is great to have you here. It is great to be in the 
chair for the Energy Subcommittee. So let me go with my round 
of questions, kind of similar to what I did with the first 
panel. I want to go to Ms. Mann.
    Your testimony notes that your NRC-licensed facility is 
capable of producing high-assay LEU or low-enrichment uranium 
for advanced nuclear fuels. I would like a brief clarification. 
Are there any technical, regulatory, or other legal 
restrictions from your enrichment plant to make high-assay LEU 
for commercial purposes?
    Ms. Mann. Certainly the technology is fully capable now of 
doing that. The site that we have we think is certainly 
suitable. We do need a nuclear NRC license amendment to build a 
HA-LEU enrichment module. But there are no other restrictions 
on that technology or that proposal other than, of course, 
having a market that we can serve.
    Mr. Shimkus. Markets are important as you directly put.
    Are you aware--and you were in here for the first panel, so 
this is a similar question--are you aware of the GAO report 
that recently analyzed the NNSA's preliminary cost estimates 
and mission statement regarding future enrichment needs for 
American defense purposes?
    Ms. Mann. I am generally familiar.
    Mr. Shimkus. Based on your experience in building and 
operating the only enrichment plant in the United States, what 
is your perspective on GAO's conclusions on NNSA's cost 
estimates?
    Ms. Mann. There are certainly two very different things. We 
built a greenfield commercial enrichment facility in New 
Mexico, taking it from what was a effectively a square mile of 
scrub brush and coyotes in 2006, and turning it into a high 
class enrichment facility. And investment to date is about $5 
billion.
    I think that is very different than the cost range that was 
envisioned for a much smaller footprint of capacity for the DOE 
domestic uranium program.
    Two comments on that. One, I do believe there is strictly a 
clear delineation between civil and military programs. I can 
also tell you that the cost estimates that are in that GAO 
report are unsustainable, whether it be for the commercial 
fleet or for an emerging advanced reactor community.
    Mr. Shimkus. So you were, again, here during the first 
panel. And what do you respond--and he could have stayed, too--
Mr. McGinnis' comments on the similar question?
    Ms. Mann. I certainly appreciate that the Department has 
other missions it needs to fulfill. And I understand that they 
may be looking to merge some of those. But what we are looking 
at is the near-term need for HA-LEU fuel for commercial 
reactors, on a relatively small demand, even if you aggregate 
all of those small pieces from different users.
    If you try to put the defense program on that backs of 
that, you will break it.
    Mr. Shimkus. And Mr. McGinnis' comment which, you know, I 
fleshed out a little bit but not enough, he seemed to be making 
the debate of competitive marketplace and having two production 
facilities. How would you comment on that?
    Ms. Mann. We certainly support competition. And I can tell 
you we are very much aware of the competition that we see, both 
in the enrichment market and other parts of the fuel cycle. And 
that's really up to the market to bear.
    We know that utilities, like Southern here, like a very 
diverse range of supplier. I think the question is until we 
know what the full demand profile is, how many advanced 
designs, advanced fuel types move forward I am not sure what 
that industry is capable of sustaining in the earliest years.
    Mr. Shimkus. Well, I think that's been my point, too, 
because I would concur that we would like to have multiple 
sources, like to have competition. We want lower costs and more 
efficiencies.
    But I am also concerned about the Government overbuilding 
on a projected market which may not be there immediately to 
fulfill the production needs and desires, and you will have 
stranded costs there in producing fuel that you may not need to 
do.
    Ms. Mann. I will just tell you quickly that the existing 
fuel cycle is under quite duress due to the falling demand, to 
the significant amount of inventories, to state-sponsored 
competition. We are trying to sustain that. And if you look at 
trying to add additional pressures on top of that, it's not 
sustainable.
    Mr. Shimkus. Well, and I follow it very closely because I 
have the Honeywell facility. And I have talked with DOE quite a 
bit about the multiple individual markets that don't produce 
it, but then the repurposing of, in essence, Government-
subsidized ability to purchase and buy and then also create 
fuel waste. It makes it hard for a corporate entity to be able 
to provide that certainty.
    So, I am going to yield back my time. And thank you for 
answering those questions. And then yield to Mr. Green for 5 
minutes, from Texas.
    Mr. Green. Thank you, Mr. Chairman. I thank our witnesses 
for waiting here today.
    Mr. Merrifield, based on your vast experience in the 
Nuclear Regulatory Commission I would like to ask you a few 
questions on the NRC's fee and Mr. Kinzinger and Mr. Doyle's 
bill.
    Section 3(b) of the bill would provide an exclusion of fees 
for those costs associated with the development of regulatory 
infrastructure for advanced nuclear reactor technology. Can you 
talk a little bit about why this provision is so important to 
this new industry and how our current NRC fee structure stifles 
growth in the sector?
    Mr. Merrifield. Yes. Thank you very much, Congressman, for 
that question.
    A couple of things. First, I think if you look 
historically, with the current fee in nuclear reactors they did 
not have to pay those kind of fees when those reactors were 
developed in the 1960s, 1970s, and 1980s. So concurrently I 
think that is one issue.
    The second one is these are nascent technologies. These are 
not large companies that are developing these technologies. 
They are smaller. They are innovative. And they are currently 
in the market seeking funding to bring those designs forward.
    Placing on top of all of that effort the costs of the NRC, 
building its regulatory infrastructure would be, would be 
potentially crushing. And that's really a role and 
responsibility that is more appropriately left to the U.S. 
Government. And so I believe, and ClearPath Action believes 
that the language is appropriate.
    Mr. Green. As more and more nuclear plants go offline 
across the country, the fee burden is felt more heavily by 
those who remain. Do you feel the current NRC structure is 
sustainable? And if not, is there a tipping point that you 
expect to come?
    Mr. Merrifield. I think that is, I think that is a great 
question. And I agree with the direction from which it comes.
    Yes, I do think Congress is going to have to continue to 
take a look at the number of reactors and adjust the amount of 
fees that are put on licensees as a result of it. The NRC has 
certain breadth of work that they have to do. But there will 
become a point at which I think there will need to be increased 
general revenues dedicated to that to make sure that that fee 
structure isn't overly burdensome to U.S. utilities.
    Mr. Green. So, do you have a year. I mean, because some of 
this legislation needs, sometimes it takes years to get 
something passed. Do you have any idea when that may be, 
looking into the future?
    Mr. Merrifield. Well, I think, I think this is something 
that this committee should be thinking about and Congress 
should be thinking about right now. I mean the discussion is as 
many of a quarter of the reactors could potentially go offline. 
I think, you know, changing the current ration that previously 
was 90:10, I think taking it to a different ratio makes sense 
currently right now.
    Mr. Green. Do you feel the draft legislation adequately 
addresses these challenges?
    Mr. Merrifield. I think the legislation is a great step in 
the right direction.
    Mr. Green. While I made clear before that I am not fond of 
DOE's recent notice of public review that proposed subsidizing 
certain industries, I do think we face a challenge that needs 
to be addressed. We have heard from many witnesses on multiple 
pieces of legislation.
    What else should Congress be looking at to shore up the 
domestic nuclear energy production in the coming year other 
than these legislations?
    Mr. Merrifield. Well, I think having, having the fast 
reactor capability out in Idaho is going to be important for 
the testing of the various rules that will be used for these 
reactors. So I think that is an important one.
    I think the actions that Congress has made to make sure the 
DOE loan guarantee program stays in place is important.
    I think the Ex-Im Bank is an important tool for the export 
of these reactors, so I would certainly recommend continuation 
and, frankly, some strengthening of their nuclear capabilities.
    Those are among some of the things I think Congress ought 
to look at.
    Mr. Green. Well, hopefully next time we reauthorize Ex-Im 
Bank it won't take such a battle as we had last time.
    Mr. Chairman, I will yield back my time. And thank you for 
my earlier extra 20 seconds.
    Mr. Shimkus. The gentleman yields back his time. And the 
Chair recognizes the gentleman from Missouri, Mr. Long, for 5 
minutes.
    Mr. Long. Thank you, Mr. Chairman.
    Mr. Irvin, your testimony focuses a lot on the research and 
development of advanced nuclear reactors. What are the long-
term benefits your customers will see after Southern Company 
invests in these new technologies?
    Mr. Irvin. So, the industry at large, we talked a lot today 
about the nuclear industry being in the crossroads, but I think 
the industry at large is at a crossroads as well. We have seen 
the influx of lots of new technologies being disruptive across 
the board. And so as we look forward, we believe investing in 
technology that is, I am going to use the phrase, options 
positive. So I want to create options. Knowing that I am 
believing that the future is uncertain I want to create 
technologies that provide multiple options for my customers.
    So, the first and foremost for me is the technology, does 
it have a potential to drive down the cost of energy? I believe 
advanced reactors do have that potential.
    But further than that, does the technology have the 
potential to serve more than just electricity needs? Does it 
have options for a multitude of product slates? And these 
advanced reactors and the nature in which they operate creates 
opportunities for nuclear energy to be transitioned into the 
industrial sector, into the transportation sector, but 
certainly providing low cost electrons.
    And so, we see the opportunity for this long-term, stable 
energy supply to be pervasive across the entire energy economy.
    Mr. Long. What does Congress or the Department of Energy 
need to do to help companies like Southern Company and other 
companies streamline the development of these advanced 
reactors?
    Mr. Irvin. Well, I think the one of the most important 
things there, and it is something I have seen out of the 
Department over the last 5 years do more and more is really 
seek out industry's input and partner with industry in a 
collaborative way, and take that feedback from industry as to 
where we need to move the technologies to. I think industry, in 
partnership with the Department, can accelerate. And we need 
that collaboration with the Department on things like 
fundamental science, testing capabilities such as the advanced 
reactor, fast test reactor that was mentioned earlier.
    But then, ultimately, as that collaboration matures we need 
the Department and Federal Government to allow industry to then 
move forward and commercialize and take advantage of the 
investment that has been put in before it.
    Mr. Long. OK. This next question is for everyone. We will 
just start Merrifield, Mann, Irvin, and Lyman down the line if 
we can.
    But for all of you, I have seen some of your testimonies 
reference the--in reference to China starting to load fuel into 
new nuclear power, a new nuclear power plant, and India, 
Russia, and Korea leading the United States in deploying large 
nuclear reactors over 1,000 megawatt units. Is the United 
States falling behind these countries in the field of nuclear 
energy and nuclear technology in your opinion, Mr. Merrifield?
    Mr. Merrifield. That is--I have got a mixed answer to that. 
Frankly, the reactor that is being built in China is a 
Westinghouse technology. The United States continues to possess 
the most modern nuclear design out there in that particular 
technology, so we are leading in that regard.
    In terms of construction, obviously Southern Company has 
two of those reactors that continue to be built. It is 
unfortunate that the cost of natural gas is what it is, which 
is hindering utilities like Southern, more and more of those. 
But certainly there is a robust export market. And certainly 
the United States should be a leader in that, in that regard.
    Mr. Long. OK. Ms. Mann, is the United States falling behind 
these other countries in the field of nuclear energy, nuclear 
technology in your opinion?
    Ms. Mann. Mr. Long, my specialty is on the nuclear fuel 
cycle. And in that regard the answer is clearly no.
    But in order to be able to supply into China we need to 
have an open market. And that is one of the things we are 
concerned about is to make sure that they are able to continue 
to receive the output of American technology in their home.
    Mr. Long. Mr. Irvin?
    Mr. Irvin. Personally, I think the race is a little too 
close to call right now. But I think the reference to natural 
gas being low, by the way it is a good thing for Southern 
Company if natural gas prices are low, but it is a clear 
indication that when the U.S., when we put U.S. innovation to 
work through collaboration with the Federal Government, like we 
did with learning how to frack, and finding shale gas, then we 
can clearly stay ahead and put ourselves further ahead than the 
rest of the world. And so that is the reason why we are so 
focused on innovation.
    Mr. Long. Dr. Lyman?
    Dr. Lyman. Well, I would say the answer is no. From our 
perspective safety and security are paramount. And I do agree 
with Mr. McGinnis when he said that the U.S. as far as its 
safety and security infrastructure for nuclear power is 
probably the best in the world.
    So we would like to see those concepts, you know, exported. 
We don't want to see a race to the bottom where the U.S. has to 
compromise on its own principles just to compete with China on 
nuclear safety concerns. So we think that that is the best 
selling point of U.S. technology is that backbone of safety and 
security.
    Mr. Long. Thank you, Mr. Chairman. I yield back.
    Mr. Shimkus. The gentleman's time has expired. The Chair 
recognizes the gentleman from Pennsylvania, Mr. Doyle, for 5 
minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    Commissioner Merrifield, welcome back. I want to thank you 
for taking the time to speak to the committee on nuclear energy 
issues and the NUKE Act. The NUKE Act made several changes from 
the discussion draft that was under consideration when you last 
testified before the committee. These changes include 
significantly longer time lines for major license applications, 
milestones for new plants, and the removal of deemed approved 
language.
    Under the current version of the NUKE Act, if the NRC does 
not meet the time lines that are laid out in the bill will that 
have any effect on an operator's application?
    Mr. Merrifield. Yes, I would have to go back and look at 
the explicit detail, but I think it does provide an opportunity 
for that process to continue. So I don't think it has a 
hindrance. But I will certainly look at that and give you some 
comments.
    Mr. Doyle. Now, do you think the current language gives the 
NRC sufficient flexibility?
    Mr. Merrifield. I do. I do.
    Mr. Doyle. Do you think the current NRC fee structure is 
able to appropriately adjust to reflect current market and 
future changes to our national energy portfolio without 
congressional action?
    Mr. Merrifield. As I indicated--great question--as I 
indicated in the questions earlier, I believe there needs to be 
additional revisions to that fee structure, part of which is 
envisioned by the legislation we have been talking about today. 
I think that is going to be a continually evolving issue if 
there are additional U.S. reactors that go into decommissioning 
prematurely.
    Mr. Doyle. Can you speak to the current budgetary burden 
that is placed on remaining nuclear reactors when a plant 
retires? I mean, how do you anticipate this is going to affect 
our nuclear fleet if it is not addressed?
    And do you see the changes that are proposed in the NUKE 
Act as helping to address this problem?
    Mr. Merrifield. Well, I will start with, I will start with 
the second question first. I do think they are helpful. But 
there is no question there are certain fixed assets that the 
agency has that it needs in order to be an effective regulator. 
At some point that will become large enough that the burden 
placed on the individual reactor operators will become larger 
and larger. And that is troublesome and problematic because it 
makes even more complicated the likelihood that some of those 
reactors will be shut down. And I don't think that is a good 
thing.
    Those are important, carbon-free, clean-generating assets 
for our country. I think there are some that have shut down 
that have been, frankly, a real shame.
    Mr. Doyle. Thank you very much. Mr. Chairman, I yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
would now like to recognize the gentleman from Illinois, Mr. 
Kinzinger, for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. Thank you all for 
being here today. I very much appreciate it.
    Mr. Merrifield, Section 7 of H.R. 1320 sets time lines and 
goals for the NRC to issue environmental impact statements and 
safety evaluation reports for several NRC licensing actions 
such as early site permits, construction or operating permits, 
and combining operating licenses. Are the time lines in Section 
7 generally reasonable to expect based on historical processing 
times?
    Mr. Merrifield. I believe so.
    Mr. Kinzinger. And in your view would instituting such time 
lines in any way weaken the underlying stringency of the 
established reasonable assurance regulatory requirements?
    Mr. Merrifield. I do not believe so. And frankly, you know, 
we looked, and as I mentioned in prior testimony before this 
committee, I led a task force that looked at some of these very 
same issues when I was on the Commission. We felt at that time 
there was really a need to streamline some of those processes, 
and it didn't really happen. I think the language that you all 
have put into that draft will be very--would be a very welcome 
change and would give the discipline necessary for you just to 
go ahead and do that without sacrificing their mission of 
protecting public health, safety, and the environment.
    Mr. Kinzinger. Thank you.
    Ms. Mann, your enrichment facility holds an NRC license and 
is subject to NRC's fee recovery. My bill, or our bill creates 
reasonable and predictable expectations for NRC's fee recovery 
process. I understand the number of licensees who fund NRC fuel 
cycle activities has decreased recently without a reduction in 
overall NRC staffing.
    Will you discuss recent trends associated with NRC fuel 
cycle facilities?
    Ms. Mann. Certainly. What we are seeing on the fuel cycle 
in many way echoes what we have just talked about with regard 
to the reactors. The first I would note is that since our 
enrichment plant started operation in 2010, we have seen on 
average a 12-percent-a-year increase across the board. And even 
though the amount of work that is being done at our facility 
has slightly gone down now, we are fully operational.
    As the number of fuel cycle facilities that are licensed 
has dropped, the fees, the total fees that they are trying to 
collect have not gone down. And we are, in fact, spreading 
those fees across a fewer number of licensees. And so, by that 
logic, if we were to perhaps be the last one standing we would 
be bearing the full $25-million-a-year burden.
    What I think is also notable, and we touched on it a little 
bit, is there are things that have to be paid for at the NRC 
that have nothing to do with the operation of an individual 
facility. And right now what we are looking at is that 74 
percent of our fees go to those nondirect services rather than 
directly to licensing our site. And we certainly understand the 
need to share that burden, but that burden is becoming 
prohibitively high.
    Mr. Kinzinger. Thank you. And how does this embed cost in 
the nuclear fuel cycle that you have touched on, business, and 
ultimately impact the commercial nuclear industry and 
electricity rates that my constituents pay?
    Ms. Mann. Well, I can tell you sitting next here to one of 
the utilities is that it is highly unlikely we would be able to 
pass those additional costs along to any of our utility 
customers. They have other choices and they have other 
suppliers who don't bear the burden of those fees. So we need 
to be careful.
    And, likewise, we understand why Nick couldn't do that, he 
can't pass it on to his customers. So the question is what is a 
more rational way to spread those total fees across, and then 
also reflect the individual licensing work being done at each 
of our sites.
    Mr. Kinzinger. And that, by definition, would skew the 
whole energy mix anyway, which is something that we are 
obviously very concerned with. And so, would enacting this 
legislation help control those costs in your mind?
    Ms. Mann. Yes, it would.
    Mr. Kinzinger. Thank you.
    Mr. Lyman, H.R. 1320 contains substantially similar 
language regarding NRC's fee structure as the Nuclear Energy 
Innovation and Modernization Act sponsored by the Senate EPW 
Chairman Barrasso. With respect to that, though, your 
organization said the bill balanced reforms to the licensing 
process while allowing the NRC flexibility to regulate in the 
public interest and the Union of Concerned Scientists took a 
neutral position on the bill. Does that position also apply to 
the same language fee that is included in my legislation?
    Dr. Lyman. Yes, it does. And as you see in my testimony 
with regard to the fee cap and the corporate support costs, we 
also, you see that we take a neutral position because we think 
there is language in there that provides enough flexibility. We 
just don't want to see Congress mandate an arbitrary cap that 
would force the NRC to curtail important safety and security 
work and needs some flexibility. And I think the way the 
language is written now they would have that.
    Mr. Kinzinger. Thank you. And I yield back.
    Mr. Shimkus. The gentleman yields back. At this time the 
Chair recognizes the ranking member of the Environment 
Subcommittee, Mr. Tonko, for 5 minutes.
    Mr. Tonko. We have the environment team here and----
    Mr. Shimkus. They are taking over.
    Mr. Tonko [continuing]. The energy team. So only kidding.
    Welcome to our witnesses, and thank you for your input. Mr. 
Merrifield, H.R. 1320 would exempt a number of activities from 
NRC's fee structure. Can you give us the sense of what those 
activities would include?
    Mr. Merrifield. I don't have, I don't have the list in 
front of me right now. The one that we focused on is an 
exclusion for costs associated with developing a regulatory 
infrastructure for regulation on advanced reactors. We think 
that that, that particular language makes a lot of sense. It is 
important the NRC put that structure in place. It is working 
very hard to do so right now.
    There are upfront costs that are associated with that kind 
of activity. And certainly we think that should be borne by the 
general revenues rather than individual developers.
    One of the elements I included in my written testimony is 
the suggestion that you may wish to increase that to allow some 
degree of regulatory research as part of that advanced reactor 
program so the NRC had the tools looking forward to 
appropriately regulate those, including an appropriate balance 
of risk-informed regulation in that part. So that, we certainly 
think that that is a very good element of that program.
    Mr. Tonko. So the NRC currently recovers approximately 90 
percent of its budget from license fees?
    Mr. Merrifield. Yes.
    Mr. Tonko. Are any activities exempted under this bill 
currently recoverable by NRC?
    Mr. Merrifield. I would have to look at, I would have to 
look at the individual elements of the legislation that go past 
it. And there are certainly some areas where there may be an 
overlap, but I would have to confirm that.
    Mr. Tonko. OK, thank you.
    And do you have any estimates, and if not, Mr. Chair, maybe 
we could ask NRC, of how this bill might change that 90:10 cost 
recovery, if enacted?
    Mr. Merrifield. I do not have an estimate of that. And I do 
think you are quite correct, directing that to the NRC would be 
more appropriate.
    Mr. Tonko. Thank you. The bill also places a cap on the 
fees that NRC can charge an operating reactor. Mr. Merrifield 
or Mr. Irvin, do you know the current average annual fees 
assessed on operating reactors?
    Mr. Merrifield. I am going to pass that one to Mr. Irvin.
    Mr. Irvin. Unfortunately, I don't, I don't know that. I am 
in the R&D sector, not the operations side, so.
    Mr. Tonko. OK, thank you.
    Dr. Lyman, you expressed concerns about the expedited 
review process in Section 7 of H.R. 1320, which would require 
the draft environmental impact statement within 24 months and a 
42-month deadline for technical review process and final 
environmental impact statement. Can you explain your concerns 
with the time line for these reviews?
    Dr. Lyman. Yes. As a policy matter we don't support the 
micromanagement by Congress of regulatory agencies to that 
extent that they should be given these strict time lines to 
conduct environmental reviews. Often during the review new 
issues will arise that simply take time to resolve. And I do 
not think that it is appropriate to try to force resolution of 
those where they are right.
    So that is why we don't think, unless there was more 
discretion to the agency to be able to exempt those time lines, 
we don't think it is appropriate.
    Mr. Tonko. Thank you. And, Dr. Lyman, again, and let's 
switch to Part 810, it seems you believe we should err on the 
side of caution for nuclear technology transfers. What role 
should the State Department play in assessing proliferation 
threats?
    Mr. Irvin. I think the State Department has a critical role 
and brings its own expertise to these reviews. And in 
particular by taking a broader view that we did hear about this 
morning, that any technology export has to be seen in context. 
So, even a light-water reactor without any fuel cycle 
technology could potentially pose undue risk if it goes to, 
let's say, a region of the world like the Middle East or Saudi 
Arabia where the countries are stating its desire to acquire 
fuel cycle technology possibly from somewhere else.
    So if, if we give them cover to be able to acquire that 
technology, possibly for eventual misuse for nuclear weapons, I 
think that would be a dangerous development.
    Mr. Tonko. And is it important to be able to reassess those 
risks in real time?
    Mr. Irvin. Yes. One would hope getting information and 
making decisions is always based on the best available 
information at the time, but also by looking ahead. And 
understanding we heard earlier a nuclear reactor, you know, 
could be a 60- or a 100-year proposition. Well, that cuts both 
ways. Governments often don't last that long. So you have to 
look forward and make conservative projections about what may 
happen in the future with that technology.
    Mr. Tonko. Thank you to all of you. I yield back.
    Mr. Shimkus. The gentleman's time has expired. The Chair 
recognizes the gentleman from Michigan, Mr. Walberg, for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel for being here.
    Ms. Mann, your testimony notes that there is a need to 
address packaging and transportation needs. But you also note 
that we already transport nuclear fuel to meet the needs of the 
commercial fleet. Additionally, we currently ship HA-LEU for 
research reactors and other purposes.
    Can you please provide a bit more context on what is 
different about the needs and designs for transportation 
packages for HA-LEU on a larger scale?
    And, second, why are the existing packages not adequate for 
widespread commercial use for uranium enriched at higher 
levels?
    Ms. Mann. Certainly. Thank you.
    One of the things that we, that we know is that the HA-LEU 
is at a higher enrichment level than the commercial industry. 
And when we look at the HA-LEU fuel cycle, the first piece of 
that, the enrichment piece, will come out in the form of what 
we call uranium hexafluoride. There are no current commercial 
packages that are suitable for HA-LEU enrichments of uranium 
hexafluoride.
    Moreover, existing NRC regulations require additional 
performance requirements for such packages. So what we need to 
do is to develop that, that capability. Similarly, we don't 
have packages for higher enrichments of oxides in most cases. 
We do for some metals. And we have used the research reactor 
fuel that is in metallic form. However, there is only a handful 
of I think six to ten packages in total that would not serve 
the full breadth of the industry.
    So what we are looking to do is develop that capability. 
Or, alternatively, is one of the things we suggest in our 
written testimony is you could obviate some of that need by 
collocating one or more of those HA-LEU fuel cycle steps on a 
single facility, thus avoiding public transportation.
    Mr. Walberg. Is that in the works?
    Ms. Mann. Certainly we would be happy to find a dance 
partner if there were somebody who wanted to collocate with us 
in New Mexico. That makes a lot of sense as well from an 
economic standpoint, as well as from a regulator standpoint, 
because these existing licensed sites are known to the NRC, 
they are well characterized. We could take advantage of 
existing infrastructure, security, manpower.
    Mr. Walberg. You also note that the design, development, 
testing, and NRC certification for transportation packages 
typically take between 4 to 7 years. Would the program required 
by the Advanced Nuclear Fuel Availability Act help move the 
time frame earlier through a public/private partnership for the 
design and the DOE efforts to develop criticality benchmark 
data?
    Ms. Mann. It would in two important ways. First, it 
recognizes that there is a transportation challenge. And I 
think that has been lower on the priority list, as much of the 
focus has appropriately been on the reactor design.
    But, secondly, we talked a little bit in the earlier 
session about the need for nuclear criticality benchmarks. And 
this is a sort of data analysis to see how will these nuclear 
materials perform. And to the extent that we can come up with a 
common set of those benchmark codes that we can use in our 
enrichment facility, that converters and fabricators can use, 
and that are also used in transportation packages, gives us a 
single set of data to focus our attention on and to allow the 
NRC to focus on that, rather than reviewing multiple different 
sets of submissions.
    Mr. Walberg. Thank you.
    Mr. Irvin, I understand that a research reactor in Norway, 
known as the Halden Reactor, is currently shut down for 
maintenance. And the Norwegian Government is discussing the 
future of the reactor. My question is, what sort of 
capabilities does that reactor provide for American research 
needs? And what are the implications for the advanced nuclear 
community if the reactor is shut down?
    Mr. Irvin. So, my understanding is that reactor is a 
boiling water reactor. And if I am not mistaken, much of the 
interest in that reactor has to do with evaluating something 
called accident tolerant fuels which would be used in the 
existing fleet.
    Certainly, in general, access to research and testing 
capabilities for the existing fleet as well as for the future 
fleet is of critical importance. There has been some talk today 
about a fast neutron source. I am not intimately familiar with 
the level that the industry is relying on that reactor right 
now, so I can't comment really any further than that.
    Mr. Merrifield. Congressman, if I may?
    Mr. Walberg. Yes.
    Mr. Merrifield. I had the opportunity to visit the Halden 
Reactor when I was a member of the NRC. The NRC actually 
contributes money toward that program. There are a variety of 
countries around the world that are members of their research 
programs there. It is a critical research facility. It is one 
that has some of the longest fuels in there for some of the 
longest periods of time in the world. It would be a real loss 
to the international nuclear community if Norway were to make 
the choice not to----
    Mr. Walberg. So there is a potential role for the U.S. in 
that?
    Mr. Merrifield. I would, I would say certainly. There 
certainly is a role. If we don't have--right now we don't have 
the ability to do a lot of research that we need to do in U.S. 
fuels. We use the hindsight mind, who I support, if we can't 
get it done here in the U.S. you have got to look to Russia, 
you have got to look to China, you have to look elsewhere, and 
we really shouldn't be in that position.
    We, as a country, are the world's inventor, and innovator, 
and leader in nuclear technologies. We should not lose that 
leadership. And certainly we are at risk of doing so.
    Mr. Walberg. Thank you. I yield back.
    Mr. Shimkus. The gentleman's time has expired. The Chair 
recognizes the ranking member of the subcommittee, Mr. Rush, 
for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman.
    Mr. Merrifield, in your written testimony you state that 
eliminating the foreign ownership provision, as Section 4 of 
H.R. 1320 proposes, there could be essentially provide an 
opportunity to save the messy nuclear facility fuel investment 
by friendly foreign utility partners. Can you briefly discuss 
how that would work?
    Also, do you have any concern about unintentional 
consequences that are listed in this provision might cause? And 
I would like to invite anybody in the panel who would want to 
have some input. So, Mr. Merrifield, will you answer the 
question?
    Mr. Merrifield. Thank you very much, Congressman.
    So, I will start off with the second half of that first, 
and that is regarding the concerns. As currently written in 
statute, the foreign ownership provision really has two 
elements to it, one of which is an absolute prohibition on the 
foreign entity owning a majority of the U.S. nuclear power 
plant.
    The second half of that requirement is one that imposes a 
inimicality test where a determination is made whether the 
own--whether ownership in whole or in part would be inimical to 
the interests of the United States.
    I have testified many times before this committee and 
before the Congress dating back to when I was on the Commission 
where we said, as a member of the Commission, we really felt 
the first half of that question is unnecessary. And the 
inimicality test, if left in place, would give an appropriate 
tool to make a determination about whether that ownership was 
against the interests of the United States.
    I used in both my written and my verbal testimony an 
example where the decision of the United Kingdom to allow 
Electricite de France to purchase U.K. nuclear units had the 
beneficial aspect of allowing those reactors to continue to 
operate. And they have done so effectively and safely since the 
late 2000s.
    In terms of the potential in the United States, I can't, I 
would be--it would be inaccurate for me to say I have got a 
list of foreign utilities that today wish to purchase U.S. 
nuclear power plants. What I was suggesting in my testimony is 
there are past examples of utilities that I am aware of that 
have expressed an interest in purchasing U.S. nuclear plants 
but made the determination not to do so when they found out 
they couldn't purchase the plants in their totality because 
they were prohibited from that under U.S. law.
    So the suggestion is that perhaps if that provision were to 
be taken out of law, there may be the emergence of companies 
currently not on the market who may be interested in owning 
U.S. generating assets in the nuclear arena.
    Mr. Rush. Does anybody else want to weigh in on that? Mr. 
Lyman?
    Dr. Lyman. Just briefly. I think I may sound like a hawk 
here, but from the national security perspective I think 
removing these requirements and allowing a foreign nation to 
own, exert control over dominant U.S. nuclear facilities would 
be an irresponsible move. So we certainly oppose. We opposed 
that provision in the Senate version. We oppose, we don't think 
there is any point in reviewing it in the study that is 
proposed in this committee.
    Mr. Rush. Mr. Lyman, you think a study in this proposal 
would be dangerous?
    Dr. Lyman. I am sorry, could you repeat the question?
    Mr. Rush. You point out concerns with Section 4 and 5.
    Dr. Lyman. Yes.
    Mr. Rush. Which involved the GAO study on implication of 
repealing restriction on ownership, control, and domination by 
a foreign entity of nuclear facilities here in the U.S. And you 
are not in favor of the study?
    Dr. Lyman. Oh, I am sorry, in the Senate there is a bill, 
Nuclear Energy Innovation and Modernization Act. In the 
original version of that bill, it had a provision to strike the 
restrictions on foreign ownership, control, and domination. So 
we opposed that provision in that bill that ended up being 
stricken from the final version that was passed by the 
committee.
    Mr. Rush. I am concerned about this GAO study. Is there 
anything in your opinion that you are opposed to GAO conducting 
a study on foreign ownership?
    Dr. Lyman. Yes, the draft or the H.R. 1320 calls for a 
review and calls for a study on elimination of foreign 
licensing restrictions done by the Comptroller General in 
consultation with the Secretary of Energy. As we say, you know, 
generally we don't oppose a study as long as it is done 
properly, because studies always bring more information. So we 
wouldn't oppose the study. But we think that the results of 
that study would probably support strongly the conclusion that 
those restrictions should be maintained.
    Mr. Shimkus. The gentleman's time is far expired. The Chair 
recognizes the gentleman from South Carolina for 5 minutes. We 
thank him for being very patient.
    Mr. Duncan. Thank you, Mr. Chairman. Thank you guys for 
being here and being very patient. It will all be over soon; I 
am last.
    Mr. Merrifield, you talked a lot about the benefits of 
nuclear energy. And I agree with you, I have long been a 
proponent of the industry. And being from South Carolina you 
have talked today about VC Summer and what happened there. I 
also heard the gentleman from Missouri, Mr. Long, talk about 
China, and Russia, and others that are leading the United 
States in nuclear technology, and research and development.
    So I have got to ask you, have we lost the ability here in 
the United States to do big things in the nuclear power sector?
    Mr. Merrifield. I don't think so. I mean, I think what we 
had is we had some first-of-the-kind activities for the United 
States that we hadn't done in 20 or 30 years. Although it is 
unfortunate that there was a decision made to, hopefully, 
temporarily shut down the VC Summer construction, I certainly 
give credit to Southern Company for moving forward with those 
AP1000 reactors at the Vogtle site and fully expect to help 
them celebrate those going online years down the road.
    Mr. Duncan. So we all know that there is a lot of 
Government bureaucracy, and the regulatory environment seems to 
be getting tougher and tougher for these type projects. What 
steps could be considered potentially for a cumbersome and 
inflexible regulatory regime from inhibiting new nuclear 
development. Do you think the gentleman from Illinois Mr. 
Kinzinger's legislation will help with that?
    Mr. Merrifield. I do. I think there is a couple of things 
here. One is I do think it is appropriate to have time lines 
for the agency to conduct review of various activities. I think 
there is nothing wrong with that. We did those kind of things 
when I was a Commissioner.
    I think as well making sure that the agency is the right 
size and has the appropriate mix of people and dollars is 
important. They have reduced to a certain extent. I think there 
is more than can be done in the areas of the agency, frankly, 
having gotten the focus it probably should have.
    So, I think between the two, the legislation, and then 
things that NRC can do on its own are going to be important in 
getting there.
    Mr. Duncan. And to Mr. Irvin, I am glad to see that Vogtle 
is moving on there for Southern Company, given what happened in 
South Carolina.
    One of my biggest concerns is continuing private sector 
investment. I mean if the tens of billions of dollars that are 
required to build new nuclear reactors in this country and the 
long regulatory framework that takes place before construction, 
then starts the long construction period as we see with Vogtle 
and VC Summer, and then 7 years into the project the 
construction side of it the rug gets pulled out from under the 
project and those investors lose that money or the ratepayers 
are on the hook for something possibly in South Carolina, how 
are we as a nation going to get the investors and attract the 
investors to invest in these type projects going forward?
    And that has got to be a question Southern is asking 
itself.
    Mr. Irvin. This is a question I get asked often in terms of 
our need to try and get more investment in developing 
technology. I think, I think the answer, maybe because I am an 
R&D guy, is innovation.
    If you look at the work we are doing on advanced reactors, 
as I said earlier, we believe they have the potential to drive 
down that cost. And they drive down that cost in multiple ways. 
But in a very notable way it is shortening construction time 
lines, it is simplifying plants, it is making the time from 
concept to delivery much more effective and efficient for the 
resources.
    Mr. Duncan. That is a good point. We want to reinvent the 
wheel every time we do a new nuclear project when we have got 
proven reactor technology out there, and then design. But we 
are spending all this money to reinvent.
    Mr. Irvin. Certainly I think one of the reasons we are 
having to spend time to reinvent the technology space is that 
the rest of the industry has moved forward. So, if you look at 
15 years ago relative to natural gas combined cycle, the 
technology we have right now, we have today to deploy, we are 
highly competitive. And with the innovation that happened in 
that sector, they no longer are.
    And so, I think we, as a nuclear industry, are challenged 
to not reinvent for reinventing's sake, but to seek those 
technologies that provide the right level of benefit to our 
customers that can also be deployed in a timely manner and in 
the right characteristics.
    Mr. Merrifield. I was going to say just on that score, I 
mean these new technologies provide also some different 
avenues. You know, the traditional technologies, AP1000, 1,000 
megawatt baseload power; some of the molten salt reactors, high 
temperature gas reactors are smaller. They can be used in 
different ways. They can be used for desalinization. They can 
be used in remote locations in some circumstances. And they can 
be used for process technologies to provide very high 
temperature heat for chemical and industrial processes.
    So, in that regard although we are doing something 
different, it is meeting a series of demands that currently are 
met.
    Mr. Duncan. My time has expired.
    Mr. Chairman, at any given time we have got over 100 small 
reactors floating around the seas of the world in the United 
States Navy. So, I didn't hear small modular reactor technology 
enough from this group. I don't hear thorium and molten salt 
technology.
    I hope the industry is looking at that because they are 
safer, they are easier. SMRs may be the future for the cities 
across America and also, you know, improving the quality of 
lives of folks on other continents, possibly.
    So, thanks for the hearing. Thanks, guys. And I yield back.
    Mr. Shimkus. The gentleman yields back his time. Seeing 
there are no further Members wishing to ask questions, I would 
like to thank all the witnesses for being here today and being 
very patient as we had to go to vote.
    Before we conclude, I would like to ask unanimous consent 
to submit the following documents for the record: A letter from 
NuScale Power; an awesome floor speech by Mr. Shimkus on March 
28th, 2017, regarding the nuclear power plant in Belarus. You 
are not objecting to that, are you? Maybe it wasn't that 
awesome.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And pursuant to committee rules, I remind 
Members that they have 10 business days to submit additional 
questions for the record. And I ask that witnesses submit their 
response within 10 business days upon receipt of the questions. 
Without objection.
    The subcommittee is adjourned. Thank you for being here.
    [Whereupon, at 2:06 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
